No. 21In The

Supreme Court of the United States
AMA MULTIMEDIA, LLC,
Petitioner,
v.

MARCIN WANAT,
Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit
APPENDIX TO THE
PETITION FOR A WRIT OF CERTIORARI
MARC J. RANDAZZA
Counsel of Record
RONALD D. GREEN
JAY M. WOLMAN
RANDAZZA LEGAL GROUP, PLLC
2764 Lake Sahara Drive, Suite 109
Las Vegas, NV 89117
(702) 420-2001
ecf@randazza.com
Counsel for Petitioner
AMA Multimedia LLC

I
TABLE OF CONTENTS
APPENDIX A – Court of Appeals Opinion
(Aug. 17, 2020) ..................................................... 1a
APPENDIX B – District Court Order Granting
Motion to Dismiss (Sept. 29, 2017) ................... 45a
APPENDIX C – Court of Appeals Order Denying
Rehearing En Banc (Nov. 9, 2020).................... 71a

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15051
AMA MULTIMEDIA, LLC,
Plaintiff-Appellant,
v.
MARCIN WANAT, A FOREIGN CITIZEN;
MACIEJ MADON, A FOREIGN CITIZEN;
MW MEDIA, A FOREIGN CORPORATION,
Defendants-Appellees.

[Argued and Submitted June 11, 2019
Submission Withdrawn December 20, 2019
Resubmitted August 10, 2020
Filed August 17, 2020]

OPINION
Before: GOULD, IKUTA, and R. NELSON, Circuit Judges
R. NELSON, Circuit Judge:
AMA Multimedia, LLC (“AMA”) appeals the
district court’s dismissal
of
its
copyright
infringement, trademark infringement, and unfair
competition action against Marcin Wanat for lack of
personal jurisdiction. We agree with the district court
that AMA has not met its burden of showing that

2a
Wanat is subject to personal jurisdiction in the United
States. We also conclude that the district court did not
abuse its discretion by denying AMA certain
jurisdictional discovery and decline to consider
arguments about changes in European law for the
first time on appeal that bear on AMA’s entitlement
to additional jurisdictional discovery. We therefore
affirm.
I
Plaintiff AMA is a Nevada limited liability
company that produces and distributes “adult
entertainment over the Internet.” AMA owns several
online websites where paying customers can view
AMA’s materials. AMA’s videos are copyrighted as
audiovisual works and display the company’s
trademark in the corner of the screen.
AMA discovered that ePorner.com (“ePorner”)—an
internationally available website which hosts adult
videos and allows users to search for, select, and
watch them—was displaying AMA’s copyrighted
works. At the time this suit was filed, ePorner allowed
users to upload adult videos anonymously. ePorner
does not charge visitors; instead, it generates revenue
solely through advertising. ePorner contracts with a
third-party advertising company that chooses the
advertisements. The advertiser then “geolocates” the
advertisements, meaning visitors to ePorner.com see
advertisements based on their perceived location. For
example, visitors thought to be in the United States
see selected advertisements in English, while visitors
thought to be in France see selected advertisements
in French.
AMA was unable to determine who owned and
operated ePorner, so, in 2015, AMA sued all

3a
defendants as Doe Defendants and Roe Corporations
in the United States. The district court permitted
AMA to conduct early discovery to ascertain who
owned
the
domains
epornergay.com
and
eprncdn.com, both of which forwarded visitors to
ePorner.com. That early discovery revealed that two
companies located in Arizona, GoDaddy.com and
Domains by Proxy, were used to register the domains
and privatize the owner’s identity. AMA subpoenaed
both companies and learned that Defendant Marcin
Wanat was the registrant of the domains. AMA
amended its complaint and named Wanat as a
defendant. 1
Wanat is a citizen and resident of Poland. Wanat
and Madon are partners in MW Media, a Polish civil
law partnership which owns and operates ePorner.
Through MW Media, Wanat assists in the operation
of
ePorner.
Although
Wanat
registered
epornergay.com and eprncdn.com, he did not register
the ePorner.com domain.
Through his operation of ePorner, Wanat
maintains limited contacts with the United States.
Wanat registered the domain names through
GoDaddy.com, an American company, but did so from
Poland using a Polish version of GoDaddy’s website.
Wanat also entered into an agreement with an
American domain name server (“DNS”), Tiggee LLC
(doing business as DNSMadeEasy.com) (“Tiggee”),
that allows users to access ePorner more efficiently by

1 AMA was unable to serve the other named defendants, i.e., the
individual, Maciej Madon, and the foreign corporation, MW
Media, S.C. (“MW Media”), within the time set forth by the
district court and those defendants were thereafter dismissed.

4a
translating its domain names into Internet Protocol
addresses.
However, Wanat has never visited the United
States, has never paid taxes in the United States,
does not have a visa to travel to the United States,
and has never “derived any profit from any of [his]
activities in the [United] States as [he] conduct[s] no
such activities.” Nor do Wanat, MW Media, or ePorner
maintain any offices or agents in the United States.
At the time this suit was filed, the adult content
available on ePorner was stored on a server in the
Netherlands. Wanat stated he does not “specifically
target any of [his] services to residents of the [United]
States.” 19.21% of ePorner’s visitors are in the United
States, making the United States its largest market.
AMA asserted federal claims for copyright
infringement, trademark infringement, and unfair
competition. Wanat moved to dismiss based on a lack
of personal jurisdiction. After a hearing, the district
court ordered jurisdictional discovery.
AMA sought documents related to epornergay.com
and
eprncdn.com,
including
contracts
and
correspondence between the websites and U.S.
companies. Wanat objected to several of AMA’s
discovery requests, primarily arguing that producing
certain personal data as part of the requested
discovery would expose him to criminal liability under
Poland’s Personal Data Protection Act of 29 August
1997 (“PDP”). AMA argued that exceptions to the
PDP allowed Wanat to produce the data and that,
even if the exceptions did not apply, Wanat could
redact such personal information.
The district court appointed a Special Master
agreed upon by the parties and familiar with U.S. and

5a
Polish law to resolve the discovery disputes. See Fed.
R. Civ. P. 53. AMA and Wanat hired their own Polish
lawyers to evaluate Wanat’s discovery objections. In
June 2016, AMA filed a Motion to Compel and Wanat
filed a Motion for Protective Order. In an exhibit to
his Motion for Protective Order, Wanat raised the fact
that changes to the European privacy laws were
under consideration. Specifically, his Polish law
expert noted that work on a “Privacy Shield” that
could replace the PDP’s “Safe Harbor” provision was
in progress and could affect the transfer of personal
data from European countries to the United States.
AMA did not address this potential change in the law
in its briefing.
On July 12, six days after the parties completed
their briefing to the Special Master, the European
Commission issued its Implementing Decision (EU)
2016/1250 2 (the “Privacy Shield Decision”), which,
among other things, established that Member States
(including Poland) could transfer personal data to
certain organizations in the United States that
committed to a set of privacy principles and selfcertified their adherence to these principles to the
Department of Commerce. See id. §§ 2, 2.1. Neither
party raised this change in law with the Special
Master, and AMA did not argue that it was a selfcertified organization or provide any evidence to that
effect.
On August 22, the Special Master submitted its
52-page Report and Recommendation to the district
court. Most of the discovery disputes addressed by the

2 Available at https://eur-lex.europa.eu/legal-content/EN/TXT/
PDF /?uri=CELEX:32016D1250&from=EN.

6a
Special Master did not involve the application of the
PDP.
The Special Master recommended some of AMA’s
discovery requests involving personal information be
denied because responding to the requests would
require Wanat to produce “personal data,” potentially
exposing him to criminal liability under the PDP. The
Special Master explained that personal data could not
be transferred to the United States because: (1) the
PDP’s “Safe Harbor” provision, which allows the
transfer of such data to certain countries that provide
“adequate level[s] of personal data protection,” did not
apply to the United States, and (2) none of the PDP’s
other exceptions permitting such transfer applied. As
to the first point, relying on the Court of Justice of the
European Union’s decision in Case C-362/14, Schrems
v. Data Prot. Comm’r, 2015 E.C.R. 650, the Special
Master determined that “the U.S. has been deemed a
Third Country that does not ensure a level of
protection that meets European standards.”
AMA thereafter submitted its Objections to
Special Master’s Report and Recommendation, but
did not raise the Privacy Shield Decision in its
briefing. The Special Master’s Report and
Recommendation did not address the recent
implementation of the Privacy Shield Decision.
Adopting the recommendations of the Special Master
in full, the district court sustained Wanat’s objections
to AMA’s discovery requests. AMA moved for
reconsideration, but again did not raise the Privacy
Shield Decision. The district court denied the motion.
Wanat then renewed his motion to dismiss for lack of
personal jurisdiction. The district court granted the
motion to dismiss, holding that because AMA could
not establish sufficient minimum contacts between

7a
Wanat and the United States, asserting specific
jurisdiction over Wanat would be unreasonable. AMA
timely appealed, challenging both the jurisdictional
and discovery orders.
After two extensions, AMA filed its opening brief
on June 18, 2018. But twenty-four days earlier, the
European Parliament repealed and replaced the PDP
with the General Data Protection Regulation (EU)
(2016/679) (“GDPR”), 3 which also addressed the
transfer of personal data outside of EU Member
States, although not specifically focused on transfers
to the United States. Neither party mentioned the
Privacy Shield Decision or the GDPR in their briefs.
Following oral argument, we withdrew submission of
the appeal and directed the parties to file
supplemental briefs on several issues, including the
effect of the Privacy Shield Decision on this appeal.
We did not inquire about the GDPR, although AMA
discussed it in its supplemental brief. AMA did not
argue or provide evidence that it is a self- certified
organization under the Privacy Shield Decision in its
supplemental brief.
II
We review de novo the district court’s dismissal for
lack of personal jurisdiction. Boschetto v. Hansing,
539 F.3d 1011, 1015 (9th Cir. 2008). “The factual
findings underlying the district court’s jurisdiction
determination are reviewed for clear error.”
Freestream Aircraft (Berm.) Ltd. v. Aero Law Grp.,
905 F.3d 597, 602 (9th Cir. 2018). AMA “bears the
burden of establishing that jurisdiction is proper.”
Mavrix Photo, Inc. v. Brand Techs., Inc., 647 F.3d
1218, 1223 (9th Cir. 2011). Because Wanat’s motion
3

Available at https://gdpr-info.eu/.

8a
to dismiss was based on written materials rather than
an evidentiary hearing, AMA need only make a prima
facie showing of jurisdictional facts to withstand
dismissal. See id. This prima facie standard “is not
toothless,” however; AMA “cannot simply rest on the
bare allegations of its complaint.” In re Boon Glob.
Ltd., 923 F.3d 643, 650 (9th Cir. 2019) (internal
quotation marks omitted). Although “uncontroverted
allegations in the complaint must be taken as true”
and “[c]onflicts between parties over statements
contained in affidavits must be resolved in [AMA’s]
favor,” Schwarzenegger v. Fred Martin Motor Co., 374
F.3d 797, 800 (9th Cir. 2004), disputed allegations in
the complaint that are not supported with evidence or
affidavits cannot establish jurisdiction, see In re Boon
Glob. Ltd., 923 F.3d at 650.
We review the district court’s decision to limit the
scope of jurisdictional discovery for abuse of
discretion. Boschetto, 539 F.3d at 1020. “The district
court’s refusal to provide such discovery, ‘will not be
reversed except upon the clearest showing that denial
of discovery results in actual and substantial
prejudice to the complaining litigant.’” Id. (quoting
Data Disc, Inc. v. Systems Tech. Assocs., Inc., 557 F.2d
1280, 1285 n.1 (9th Cir. 1977)).
III
AMA contends Wanat is subject to specific
jurisdiction in the United States because he expressly
aimed tortious conduct at the forum. We agree with
the district court and hold that Wanat lacks the
requisite minimum contacts with the United States.
A
Personal jurisdiction over an out-of-state
defendant is proper where permitted by a long-arm

9a
statute and where the exercise of jurisdiction does not
violate federal due process. Pebble Beach Co. v.
Caddy, 453 F.3d 1151, 1154 (9th Cir. 2006). Here,
AMA asserts that Federal Rule of Civil Procedure
4(k)(2), known as the “federal long-arm statute,” id.
at 1159, permits the exercise of personal jurisdiction
over
Wanat.
Rule
4(k)(2)
contains
three
requirements:
First, the claim against the defendant
must arise under federal law. Second,
the defendant must not be subject to the
personal jurisdiction of any state court of
general jurisdiction. Third, the federal
court’s exercise of personal jurisdiction
must comport with due process.
Id. (internal citation omitted). Because there is no
dispute the first two requirements are satisfied, we
address only whether the exercise of personal
jurisdiction over Wanat comports with due process.
Due process requires that a defendant who is not
present in the forum has “certain minimum contacts”
with the forum “such that the maintenance of the suit
does not offend traditional notions of fair play and
substantial justice.” Int’l Shoe Co. v. Washington, 326
U.S. 310, 316 (1945) (internal quotation marks
omitted). “The due process analysis under Rule
4(k)(2) is nearly identical to traditional personal
jurisdiction analysis with one significant difference:
rather than considering contacts between [defendant]
and the forum state, we consider contacts with the
nation as a whole.” Holland Am. Line Inc. v. Wartsila
N. Am., Inc., 485 F.3d 450, 462 (9th Cir. 2007).

10a
Turning to the due process analysis, we conduct a
three-part inquiry to determine whether a nonresident defendant has such “minimum contacts”
with the forum to warrant the court’s exercise of
specific jurisdiction:
(1) the defendant must either “purposefully direct
his activities” toward the forum or “purposefully avail[] himself of the privileges of
conducting activities in the forum”;
(2) “the claim must be one which arises out of or
relates to the defendant’s forum- related
activities”; and
(3) “the exercise of jurisdiction must comport with
fair play and substantial justice, i.e. it must be
reasonable.”
Axiom Foods, Inc. v. Acerchem Int’l, Inc., 874 F.3d
1064,1068 (9th Cir. 2017) (quoting Dole Food Co. v.
Watts, 303 F.3d 1104, 1111 (9th Cir. 2002)). “If any of
the three requirements is not satisfied, jurisdiction in
the forum would deprive the defendant of due process
of law.” Omeluk v. Langsten Slip & Batbyggeri A/S,
52 F.3d 267, 270 (9th Cir. 1995). AMA bears the
burden to establish the first two prongs. See Axiom,
874 F.3d at 1068.
The first prong requires AMA to show that Wanat
either “purposefully direct[ed] his activities” at the
United States or “purposefully avail[ed] himself” of
the forum. Id. However, “[t]he exact form of our
jurisdictional inquiry depends on the nature of the
claim at issue.” Picot v. Weston, 780 F.3d 1206, 1212
(9th Cir. 2015). AMA alleges copyright and trademark
infringement claims, which sound in tort, so we apply
a “purposeful direction” analysis and ask whether
Wanat has purposefully directed activities at the

11a
United States. 4 See Axiom, 874 F.3d at 1069; Mavrix,
647 F.3d at 1228.
Where allegedly tortious conduct takes place
outside the forum and has effects inside the forum,
our circuit has examined purposeful direction using
an “effects test” based on Calder v. Jones, 465 U.S.
783 (1984). See Mavrix, 647F.3d at 1228–29 (applying
the “effects test” in a copyright infringement case);
Panavision Int’l, L.P. v. Toeppen, 141 F.3d 1316,
1321–22 (9th Cir. 1998) (applying the Calder test in a
trademark dilution case). Under this test, “the
defendant allegedly must have (1) committed an
intentional act, (2) expressly aimed at the forum
state, (3) causing harm that the defendant knows is
likely to be suffered in the forum state.” Mavrix, 647
F.3d at 1228 (quoting Brayton Purcell LLP v.
Recordon & Recordon, 606 F.3d 1124, 1128 (9th Cir.
2010)).
B
We first conclude that Wanat committed an
intentional act. For purposes of jurisdiction, a
defendant acts intentionally when he acts with “an
intent to perform an actual, physical act in the real
world, rather than an intent to accomplish a result or
consequence of that act.” Schwarzenegger, 374 F.3d at
806. The district court found, and Wanat
acknowledges, that he is one of the partners of MW
Media, which owns ePorner. From Poland, Wanat
registered two proxy domains—epornergay.com and
4 If the exercise of jurisdiction over these claims were proper, we
may assert “pendent personal jurisdiction” over AMA’s
additional claim for unfair competition because it arises out of a
common nucleus of operative fact. See Action Embroidery Corp.
v. Atl. Embroidery, Inc., 368 F.3d 1174, 1180 (9th Cir. 2004).

12a
eprncdn.com—via GoDaddy’s Polish website (a
company whose primary place of business is in
Arizona). He also purchased secondary DNS services
from Tiggee (based in Virginia). Both proxy domains
direct traffic to ePorner. Each of Wanat’s actions were
intentional acts which satisfy this first prong. See,
e.g., Brayton Purcell, 606 F.3d at 1129 (“operating a
passive website was an intentional act”) (citation
omitted); Pebble Beach, 453 F.3d at 1156 (operating a
website was an intentional act where the claim arose
out of the website name’s infringement of a
trademark).
C
We next determine whether AMA has shown that
Wanat “expressly aimed” his intentional acts—
establishing and maintaining ePorner, registering
the two domains, and purchasing the DNS services—
at the United States. 5 Schwarzenegger, 374 F.3d at
806. In Mavrix, we applied the Calder test to analyze
whether Brand Technologies, Inc. (“Brand”) was
subject to specific jurisdiction in California. 647 F.3d
at 1227–32. The plaintiff, Mavrix Photo, Inc.
(“Mavrix”), a Florida corporation in the business of
selling photos of celebrities with connections to
California, sued Brand, an Ohio corporation, for
In Walden, the Supreme Court rejected our prior decisions
holding that the express aiming element could be satisfied by a
defendant’s knowledge that harm may be inflicted on a plaintiff
in a particular forum. Axiom, 874 F.3d at 1069–70. We noted
that the Walden decision required us to focus instead on
defendant’s intentional conduct that is aimed at, and creates the
necessary contacts with, the forum state. Id. at 1068–69. “A
forum State’s exercise of jurisdiction over an out-of- state
intentional tortfeasor must be based on intentional conduct by
the defendant that creates the necessary contacts with the
forum.” Walden v. Fiore, 571 U.S. 277, 286 (2014).
5

13a
posting copyrighted photos belonging to Mavrix on
Brand’s website devoted to celebrity gossip. Id. at
1221–23. Brand’s website made money from “thirdparty advertisements for jobs, hotels, and vacations in
California.” Id. at 1222. Brand also had several
agreements with California businesses, including an
agreement with a news site, a web designer, an
internet advertising agency that placed advertisements on the website, and a wireless provider which
hosted a mobile version of the website for its users. Id.
We noted the difficulty of determining “whether
tortious conduct on a nationally accessible website is
expressly aimed at any, or all, of the forums in which
the website can be viewed.” Id. at 1229. We explained
that operating “a passive website alone cannot satisfy
the express aiming prong,” but doing so in conjunction
with “something more— conduct directly targeting
the forum—is sufficient.” Id. (internal quotation
marks omitted). But we held that a website’s
operators can be said to have “expressly aimed” at a
forum where a website “with national viewership and
scope appeals to, and profits from, an audience in a
particular state.” Id. at 1231.
Looking to Brand’s conduct, we concluded that it
“continuously and deliberately exploited the
California market for its website.” Id. at 1230
(internal quotation marks omitted). “[M]ost salient”
was its intentional use of “Mavrix’s copyrighted
photos as part of its exploitation of the California
market for its own commercial gain.” Id. at 1229. The
context was significant:
Brand operated a very popular website
with a specific focus on the Californiacentered celebrity and entertainment

14a
industries. Based on the website’s
subject matter, as well as the size and
commercial value of the California
market, we conclude that Brand
anticipated, desired, and achieved a
substantial California viewer base. This
audience is an integral component of
Brand’s business model and its
profitability.
Id. at 1230. We concluded that holding Brand
“answerable in a California court for the contents of a
website whose economic value turns, in significant
measure, on its appeal to Californians” did not violate
due process. Id.
Here, AMA argues Wanat expressly aimed
ePorner at the U.S. market, as evidenced by: (1)
Wanat’s use of geo- targeted advertisements and the
purported corresponding U.S. revenue, (2) ePorner’s
U.S. viewer-base, which comprises 19.21% of the site’s
total visitors, (3) ePorner’s Terms of Service (“TOS”),
referred to as a “contractual agreement,” and (4) the
use of the U.S.-based Tiggee. We hold that AMA has
failed to meet its burden of demonstrating that Wanat
expressly aimed his intentional acts at the United
States.
Although similar in some respects, this case
materially differs from Mavrix in several important
respects. First, Brand’s website had “a specific focus
on the California- centered celebrity and
entertainment industries.” Mavrix, 647 F.3d at 1230.
“Based on the website’s subject matter … we
conclude[d] that Brand anticipated, desired, and
achieved a substantial California viewer base.” Id.
(emphasis added). By contrast, ePorner lacks a forum-

15a
specific focus. As the district court noted, “the market
for adult content is global,” evidenced by the fact that
the other 80% of ePorner’s viewers were outside the
United States.
Second, although, according to AMA, ePorner
“features a significant portion of U.S.-based content
from producers like AMA and U.S.-based models,”
this does not mean ePorner’s subject matter is aimed
at the U.S. market to the same degree Brand’s
website was aimed at California. ePorner’s content is
primarily uploaded by its users, and the popularity or
volume of U.S.-generated adult content does not show
that Wanat expressly aimed the site at the U.S.
market. See Walden, 571 U.S. at 284 (“[T]he
relationship must arise out of contacts that the
defendant himself creates with the forum State.”)
(emphasis in original) (internal quotation marks
omitted). Instead, it merely suggests the United
States produces a significant quantity of adult
content or that ePorner’s users are more likely to
upload content produced in the United States.
Although Wanat may have foreseen that ePorner
would attract a substantial number of viewers in the
United States, this alone does not support a finding of
express aiming. See id. at 289 (rejecting our
conclusion that a defendant’s knowledge of a
plaintiff’s strong forum connections plus foreseeable
harm in the forum comprises sufficient minimum
contacts); see also Axiom, 874 F.3d at 1069–70; Pebble
Beach, 453 F.3d at 1158 (rejecting an argument for
express aiming that “relie[d] almost exclusively on
the possible foreseeable effects”).
Third, ePorner’s forum-based website traffic does
not have the same relevance here as it did in Mavrix
because of the differences in the websites’ advertising

16a
structures. In Mavrix, the “substantial number of
hits” to Brand’s site from Californians was relevant
because advertisements on Brand’s site targeted
California residents, meaning website hits from
Californians translated to more advertising revenue
from the site’s California advertisers. 647 F.3d at
1230. Brand’s knowledge of this user base meant that
it “anticipated, desired, and achieved a substantial
California viewer base.” Id. We found it immaterial
whether Brand or the third-party advertisers
targeted Californians because the targeting itself
indicated that Brand knew about the California user
base which it then exploited “for commercial gain by
selling space on its website for advertisements.” 6 Id.
“This audience [was] an integral component of
Brand’s business model and its profitability.” Id. In
short, the more California viewers Brand could bring
to its website, the more money it would make from its
advertisements directed to Californians.
Here, nearly 20% of ePorner’s traffic comes from
U.S. users. But this does not establish that Wanat
expressly aimed at the U.S. market, because
ePorner’s advertising structure materially differs
from Brand’s. AMA alleges, and Wanat’s expert
agreed, that ePorner uses geo-located advertisements, which tailor advertisements based on the
perceived location of the viewer. This tailoring does
not establish that Wanat expressly aimed ePorner at
the United States. ePorner’s geo-located advertisements, provided by a third-party advertising
company, unlike Brand’s, are always directed at the
To the extent the Mavrix court found the website’s traffic
relevant to targeting, Walden made clear that the third-party
advertiser’s behavior cannot be attributed to the defendant as a
contact. See Walden, 571 U.S. at 284.
6

17a
forum: a viewer in the United States will see
advertisements tailored to the United States while a
viewer in Germany will see advertisements tailored
to Germany. Wanat does not personally control the
advertisements shown on the site, as ePorner
contracts with third parties (not located in the United
States) which tailor the advertisements themselves or
sell the space to other parties who do. ePorner’s
forum-based traffic, absent other indicia of Wanat’s
personal direction, does not establish that Wanat
tailored the website to attract U.S. traffic.
If such geo-located advertisements constituted
express aiming, ePorner could be said to expressly
aim at any forum in which a user views the website.
As we recognized in Mavrix, “[n]ot all material placed
on the Internet is, solely by virtue of its universal
accessibility, expressly aimed at every [forum] in
which it is accessed.” 647 F.3d at 1231. As a feature
of the geo-located advertisements on ePorner’s
website, all users in every forum received advertisements directed at them. To find specific jurisdiction
based on this would run afoul of the Supreme Court’s
directive in Walden and “impermissibly allow[] a
plaintiff’s contacts with the defendant and forum to
drive the jurisdictional analysis.” 7 Walden, 571 U.S.
at 289.

In Mavrix, we stated that where “a website with national
viewership and scope appeals to, and profits from, an audience
in a particular state, the site’s operators can be said to have
‘expressly aimed’ at that state.” 647 F.3d at 1231. Here, the same
concept applies to whether ePorner, a website with an
international audience, is appealing to, and profiting from, users
in the United States. We find, however, ePorner does not
“appeal[] to” the United States such that it could be said to have
7

18a
Wanat’s other contacts with the United States also
fail to establish express aiming. AMA argues that
ePorner’s TOS suggest that ePorner (and presumably
Wanat) entered into contracts with many U.S.
residents because anyone who joined the site assented
to the TOS, thereby forming a contract. Whether or
not the TOS constitutes a contract, it does not evince
Wanat’s or ePorner’s effort to target the U.S. market.
Any dispute with U.S. residents arising out of the
performance of the TOS could create specific
jurisdiction in the United States for violation of those
terms. But AMA does not allege violations of the TOS.
The TOS therefore does not establish any targeting of
the U.S. market; it at most suggests Wanat knew
ePorner might have U.S. traffic. See Axiom, 874 F.3d
at 1069–70.
Finally, the use of Tiggee to register certain
domain names related to the website does not show
targeting of the U.S. market. AMA contends that the
use of Tiggee, which advertises itself as one of the
fastest DNS providers in the United States, evidences
targeting of the United States because of the speed
such companies provide to U.S. website visitors. Use
of a company that offers fast speeds in the United
States could be consistent with the desire to appeal to
the U.S. market. But AMA has not provided evidence
to suggest that Wanat chose this vendor or was
motivated by a desire to appeal to the U.S. market or

“expressly aimed” at the forum. True, ePorner “profits from” the
United States. But the profit results from ePorner’s users who
access the site rather than from Wanat’s targeting of forum
users who access the site. This differs from Brand’s website
which targeted California users through the website’s content.

19a
generate more U.S. users, as opposed to more users
globally. 8
In sum, the United States was not “the focal point”
of the website “and of the harm suffered.” Walden, 571
U.S. at 287 (quoting Calder, 465 U.S. at 789). AMA
therefore has not shown Wanat purposefully directed
his activities at the United States. The district court
correctly found that, on this record, it lacked specific
jurisdiction over Wanat. 9
AMA relies on UMG Recordings, Inc. v. Kurbanov, 2020 WL
3476993 (4th Cir. June 26, 2020). But Kurbanov is distinguishable. The defendant in Kurbanov had “registered a Digital
Millennium Copyright Act agent with the U.S. Copyright Office,”
contracted with U.S.-based advertising brokers,” and “relied on
U.S.-based servers.” Id. at *7. None of those specific actions
aimed at the United States, including taking advantage of U.S.
laws “for certain safe harbor defenses to copyright infringement
claims,” id., are present here. The dissent relies on Keeton v.
Hustler Magazine, Inc., 465 U.S. 770 (1984), Dissent at 37, 39,
but that case is likewise inapposite. The defendant magazine
publisher in Keeton regularly circulated “some 10 to 15,000
copies of Hustler magazine” to customers in the forum state
“each month.” Id. at 772. That sort of express aiming is also not
present here.
9 Because we hold that AMA has failed to meet its burden on the
first prong of the minimum contacts test regarding purposeful
direction, we do not need to reach the second and third prongs.
However, we would conclude that AMA also fails to satisfy the
second and third prongs of the minimum contacts test.
Specifically, AMA has failed to show that its claims arise out of
or relate to Wanat’s forum-related activities and that the balance
of factors supports the conclusion that exercising jurisdiction
over Wanat would be unreasonable. First, nothing more than
AMA’s contested bare allegations support any personal
involvement by Wanat in uploading, encouraging the uploading,
or intentionally failing to remove the infringing content. Second,
on balance, exercising jurisdiction over Wanat, a Polish citizen,
would be unreasonable given his limited contacts with the
8

20a
IV
A
We next consider whether the district court
abused its discretion by limiting the scope of AMA’s
jurisdictional discovery on the basis of privacy
concerns. 10 See Boschetto, 539 F.3d at 1020. We
conclude it did not.
First, we consider de novo whether the district
court made any legal error. The district court denied
certain jurisdictional discovery to AMA because,
according to the Special Master’s Report and
Recommendation which was adopted in full, the PDP
and the Court of Justice’s Schrems decision barred
Wanat from producing “personal data” to the United
States because such disclosure might subject Wanat
to criminal liability under Polish law.
AMA never made the Special Master or the district
court aware of the Privacy Shield Decision, and
therefore the district court did not err in failing to
consider it. The district court had no duty to identify
sua sponte a change in law, particularly when—given
the record before the district court—the legal change
did not give AMA the right to obtain jurisdictional
forum, the burden on Wanat if he must defend in the forum,
potential conflicts with Poland’s sovereignty and its potential as
an alternative forum. See Core-Vent Corp. v. Nobel Indus. AB, 11
F.3d 1482, 1487–88 (9th Cir. 1993), modified, Yahoo! Inc. v. La
Ligue Contre Le Racisme Et L’Antisemitisme, 433 F.3d 1199 (9th
Cir. 2006). While AMA has an interest in adjudicating its dispute
in its chosen forum, we still conclude that the balance of factors
weighs in favor of finding that jurisdiction over Wanat is
unreasonable.
10 On appeal, AMA only contests the district court’s discovery
rulings to the extent they implicate the PDP and Schrems
decision.

21a
discovery. See United States v. Sineneng- Smith, 140
S. Ct. 1575, 1579 (2020) (“[W]e rely on the parties to
frame the issues for decision and assign to courts the
role of neutral arbiter of matters the parties present.”
(quoting Greenlaw v. United States, 554 U.S. 237, 243
(2008)). The parties jointly recommended the Special
Master, hired their own Polish law experts, and
briefed the jurisdictional discovery issues before the
Special Master issued its Report and Recommendation. Notably, in an exhibit filed with the Special
Master, Wanat’s expert stated that changes to the
European privacy laws were under consideration that
could replace the PDP’s “Safe Harbor” provision and
affect the transfer of personal data to the United
States. AMA, however, did not address these
potential changes to the PDP before the Special
Master and did not raise the Privacy Shield Decision
in its objections to the Report and Recommendation
or motion for reconsideration.
It was not the district court or the Special Master’s
obligation to independently identify a change in law
that may affect its jurisdictional analysis; that was
AMA’s responsibility. AMA had notice and opportunity to raise the Privacy Shield Decision below, but
failed to do so. We therefore conclude that the district
court did not abuse its discretion when it denied AMA
the jurisdictional discovery it sought.
B
We next determine whether the Privacy Shield
Decision, which was enacted while this case was
before the district court, or the GDPR, which was
enacted while this appeal was pending but not raised
by AMA in its initial briefing, are matters that we
should consider.

22a
“Absent exceptional circumstances, we generally
will not consider arguments raised for the first time
on appeal, although we have discretion to do so.” In re
Am. W. Airlines, Inc., 217 F.3d 1161, 1165 (9th Cir.
2000). We have exercised such discretion where:
(1) there are exceptional circumstances
why the issue was not raised in the trial
court; (2) the new issue arises while the
appeal is pending because of a change in
the law; or (3) the issue presented is a
pure question of law and the opposing
party will suffer no prejudice as a result
of the failure to raise the issue in the trial
court.
Raich v. Gonzalez, 500 F.3d 850, 868 (9th Cir. 2007).
Even if a case falls within one of these exceptions, we
must “still decide whether the particular circumstances of the case overcome [the] presumption
against hearing new arguments.” Id. (quoting Dream
Palace v. Cty. of Maricopa, 384 F.3d 990, 1005 (9th
Cir. 2004)). In making this decision, we must adhere
to “the principle of party presentation.” SinenengSmith, 140 S. Ct. at 1579. It is the parties who “frame
the issues for decision,” and we may entertain only
those arguments “bearing a fair resemblance to the
case shaped by the parties.” Id. at 1579, 1582 (citation
omitted).
1
The Privacy Shield Decision was implemented
after the parties completed their briefing to the
Special Master and before the Special Master’s Report
and Recommendation. But AMA never raised this
change in law to the Special Master, to the district
court, in its motion for reconsideration, or in

23a
opposition to Wanat’s renewed motion to dismiss.
Again, Wanat’s expert had provided notice that a
change in the European privacy laws was under
consideration at the time the parties were briefing the
issue to the district court and AMA had both notice
and opportunity to raise this issue before the case was
dismissed. Despite failing to raise the issue below or
in its initial briefing, AMA claims in its supplemental
brief that we should consider this new argument
because the applicability of the new law is a pure
question of law and Wanat will not be prejudiced by
its consideration. We are not persuaded.
First, we reject AMA’s argument regarding the
Privacy Shield Decision because it is unrelated “to the
case shaped by the parties.” Id. at 1582. Although
“[t]here are no doubt circumstances in which a modest
initiating role for a court is appropriate,” id. at 1579,
such circumstances are not present here. AMA had
numerous opportunities to raise the Privacy Shield
decision but did not do so until we ordered
supplemental briefing.
Second, the proper vehicle for raising this issue
would have been through a supplemental notice to the
Special Master or the district court, or even in a
motion for reconsideration before final judgment, not
by raising it for the first time on appeal. See D. Ariz.
R. LRCiv 7.2(g)(1) (Motions for Reconsideration)
(2015) (motions for reconsideration should show
“manifest error or a showing of new facts or legal
authority that could not have been brought to [the
court’s] attention earlier with reasonable diligence”);
see also Rentrop v. Spectranetics Corp., 550 F.3d 1112,
1117 (Fed. Cir. 2008) (“[W]hen there is a relevant
change in the law before entry of final judgment, a
party generally must notify the district court; if the

24a
party fails to do so, it waives arguments on appeal
that are based on that change in the law.”); Douglas
Asphalt Co. v. QORE, Inc., 657 F.3d 1146, 1152 (11th
Cir. 2011) (adopting the analysis of Rentrop to find
that plaintiff’s failure to file a motion for
reconsideration to notify the district court before
entry of final judgment waives arguments on appeal
based on the change in law).
Third, no exceptional circumstances warrant
application of the Privacy Shield Decision to AMA’s
argument for additional jurisdictional discovery. “A
party’s unexplained failure to raise an argument that
was indisputably available below is perhaps the least
‘exceptional’ circumstance warranting our exercise of
this discretion.” G & G Prods. LLC v. Rusic, 902 F.3d
940, 950 (9th Cir. 2018). Moreover, application of the
Privacy Shield Decision is not a pure question of law.
Whether the Privacy Shield Decision would weigh in
favor of permitting additional jurisdictional discovery
depends on whether AMA is a self-certified
organization under the Privacy Shield Decision,
which is plainly a factual question. For the same
reason, resolving this issue in AMA’s favor would
prejudice Wanat because AMA is asking for remand
to develop the factual record as to whether AMA
satisfied the Privacy Shield Decision’s selfcertification requirements. See Raich, 500 F.3d at
868. In sum, we decline to take up the application of
the Privacy Shield Decision for the first time on
appeal. See El Paso City, 217 F.3d at 1165.
2
Similarly, before AMA filed its opening brief in
this appeal—and after AMA had already been
granted two extensions to file its opening brief—the

25a
European Parliament repealed and replaced the PDP
with the GDPR. Although AMA had the opportunity
to bring this change to our attention its opening or
reply brief, it did not do so. This was raised for the
first time after we withdrew submission of this case
and specifically requested briefing on potential
waiver and the impact of the Privacy Shield Decision.
Consistent with “the principle of party
presentation,” Sineneng-Smith, 140 S. Ct. at 1579, we
decline to consider AMA’s untimely argument
regarding the GDPR. In particular, we are not
persuaded that we should entertain this argument
where the party that could benefit from the new law
did not raise it in its briefs, although it had notice and
opportunity to do so, and only discussed it in a
supplemental brief filed at our request. See Brown v.
Rawson-Neal Psychiatric Hosp., 840 F.3d 1146, 1148–
49 (9th Cir. 2016) (“[A]ppellate courts do not sit as
self-directed boards of legal inquiry and research, but
essentially as arbiters of legal questions presented
and argued by the parties before them.”) (internal
quotation marks omitted).
In addition, since the GDPR replaced the PDP, any
consideration of the GDPR would necessarily require
an analysis of how the GDPR and the Privacy Shield
Decision interrelate. We have already declined to
consider the Privacy Shield Decision, which further
counsels against analyzing the GDPR. Finally, as
previously discussed, AMA has not claimed or
presented evidence that it has satisfied either the
Privacy Shield Decision or the GDPR’s requirements
for receiving personal data. See supra at IV.B.1.

26a
V
AMA has not shown that Wanat purposefully
directed his suit-related conduct at the United States.
Nor did the district court abuse its discretion in
denying AMA jurisdictional discovery. And we decline
to consider new arguments that AMA raises for the
first time in response to our order for supplemental
briefing, and which implicate facts not in the record.
We therefore affirm.
AFFIRMED.
IKUTA, Circuit Judge, concurring:
I concur in the majority opinion in full. I write
separately to clarify the posture of this case in light of
our decision.
Today we hold that the district court did not err in
granting Wanat’s motion to dismiss for lack of
personal jurisdiction. We also affirm the district
court’s denial of AMA’s motion for additional
jurisdictional discovery and its entry of final
judgment against AMA.
And that means this case is over. When a court
lacks personal jurisdiction over a defendant, it has no
“authority to bind a … defendant to a judgment,”
Walden v. Fiore, 571 U.S. 277, 283 (2014), and must
dismiss the case against the defendant, see, e.g., id. at
281. The defendant is not “amenable to proceedings,”
Int’l Shoe Co. v. Washington, 326 U.S. 310, 311 (1943),
and is shielded from “the burdens of litigating” in that
forum, World-Wide Volkswagen Corp. v. Woodson, 444
U.S. 286, 292 (1980). Congress has provided one
exception to this general rule: a court that lacks
personal jurisdiction over a defendant may transfer
the case to another district court where the case

27a
“could have been brought.” 28 U.S.C. §1406(a); see
Goldlawr, Inc. v. Heiman, 369 U.S. 463, 465 (1962).
This exception is not applicable here; there is no place
where this case could have been brought because
Wanat lacks sufficient contacts with the United
States as a whole. See Maj. Op. at 21.
In his concurrence, Judge Nelson suggests that
“perhaps the door remains slightly open for further
proceedings on remand.” Conc. at 29. The dissent
agrees. Dissent at 33 n.1. But neither Judge Nelson
nor the dissent cites any statute or judge-made rule
authorizing a district court to exercise power over a
party in the absence of personal jurisdiction. Because
the district court lacks personal jurisdiction over
Wanat, it now has the authority to do only one thing:
remove this case from its docket in accordance with
its ordinary procedure.
R. NELSON, concurring:
I write separately to address potential issues left
open in light of our decision to affirm the district
court’s order dismissing the complaint. While the
presumption may be that our decision fully resolves
this case, perhaps the door remains slightly open for
further proceedings on remand. See Hampton v. Pac.
Inv. Mgmt. Co., 869 F.3d 844, 846 (9th Cir. 2017)
(“Dismissals for lack of subject-matter jurisdiction …
must be without prejudice, because a lack of
jurisdiction deprives the dismissing court of any
power to adjudicate the merits of the case.”) (citation
omitted). We hold that the district court did not abuse
its discretion when it denied certain jurisdictional
discovery to AMA. We also decline to exercise our
discretion to review AMA’s new legal claims, raised
for the first time on appeal, regarding the impact of

28a
intervening foreign law on its jurisdictional discovery
requests.
I do not understand our opinion, however, to
preclude the district court from exercising its
discretion on remand to consider intervening law in
any supplemental request for jurisdictional discovery
or amendment of AMA’s complaint. As we discuss,
changes in European law—specifically, the Privacy
Shield Decision and GDPR—may have opened the
door for companies based in the United States to
obtain personal data that may not have previously
been available under the PDP.
On remand, the district court may wish to allow
AMA to amend its complaint or request additional
briefing to consider whether the Privacy Shield
Decision and GDPR have altered the analysis on
available jurisdictional discovery. 1 To be sure, the
current record is silent whether AMA could benefit
through self-certification under the Privacy Shield
Decision or the GDPR. And AMA has provided no
evidence on appeal that it has self-certified. However,
these are issues that the district court may wish to
evaluate on remand.
If additional jurisdictional discovery is ordered,
Wanat’s contacts with the United States may be
shown to be more significant than the current record
demonstrates. For example, ePorner refused to
1 Assuming AMA followed the self-certification procedures, I
would be concerned with an interpretation of either the Privacy
Shield Decision or the GDPR that would wholly prevent Wanat
from producing jurisdictionally relevant “personal data.”
Significant safeguards are available for producing even the most
sensitive and confidential data. Moreover, Wanat’s counsel at
oral argument agreed Wanat would comply with a discovery
order, notwithstanding the GDPR.

29a
produce any of its advertising agreements. Wanat’s
expert stated he could not conclusively determine that
ePorner only used “ad networks rather than more
directly negotiating with advertisers in addition to
the ad network.” Evidence that Wanat negotiated
with advertisers directly may reveal whether he
intended to target U.S. users. Similarly, evidence that
Wanat engaged Tiggee for the purpose of targeting
U.S. forum residents may affect the analysis as well.
The extent of these contacts could also affect the
reasonableness analysis.
If the district court does decide that additional
jurisdictional analysis is warranted on remand, one
additional issue—and potentially a threshold one for
jurisdictional discovery—may be considered. AMA
argues that MW Media’s and Madon’s U.S. contacts
may be imputed to Wanat because MW Media is a
civil law partnership between Wanat and Madon,
which, under Polish law, has no legal personality and
cannot be sued. Therefore, AMA claims that because
Wanat is jointly liable for the debts and obligations of
the partnership, any contact by the partnership may
be attributed to Wanat for jurisdictional purposes.
This could become an important issue impacting what
jurisdictional discovery is relevant and what contacts
may support the court’s jurisdiction over Wanat.
We previously considered whether a partnership’s
contacts could be imputed to a partner for
jurisdictional purposes in Sher v. Johnson, 911 F.2d
1357, 1365 (9th Cir. 1990), and held that a Florida law
firm’s contacts with California could not be attributed
to its individual partners. Like AMA’s argument here,
“[t]he Shers contend[ed], without benefit of case
support, that because the liability of the partnership
would establish the joint and several liability of each

30a
individual partner, ... jurisdiction over the partnership establishes jurisdiction over the partners.” Id.
(internal citation omitted). We disagreed, explaining,
“[l]iability and jurisdiction are independent” and
“[r]egardless of their joint liability, jurisdiction over
each defendant must be established individually.” Id.
Relying on the general rule that “[f]or purposes of
personal jurisdiction, the actions of an agent are
attributable to the principal,” we held that “because
each partner acts as an agent of the partnership when
carrying on the business of the partnership,” “[t]he
contacts of the partners may establish jurisdiction
over the partnership.” Id. at 1362, 1366. However, the
inverse is not ordinarily true. “[W]hile each partner is
generally an agent of the partnership for the purpose
of its business, he is not ordinarily an agent of his
partners.” Id. at 1366. “Thus, a partner’s actions …
ordinarily may not be imputed to the other partners.”
Id. We did not, however, foreclose the possibility that
a forum’s partnership law may create an agency
relationship between partners. In such circumstances, the general rule would apply and a
partnership’s contacts with a forum may be attributed
to its partners.
If further proceedings on jurisdiction occur, the
district court should determine whether Polish law
creates an agency relationship between partners and
other persons such that the contacts of Madon or MW
Media may be imputed to Wanat and whether such a
ruling would impact jurisdictional discovery or the
jurisdictional analysis.
GOULD, Circuit Judge, dissenting:
Our precedents establish that we have the
authority to exercise personal jurisdiction over a

31a
defendant who has, among other things, expressly
aimed his tortious conduct at the United States. That
authority allows us “to hold [a defendant] answerable
… for the contents of a website whose economic value
turns, in significant measure, on its appeal to [forum
residents].” Mavrix Photo, Inc. v. Brand Techs., Inc.,
647 F.3d 1218, 1230 (9th Cir. 2011). In determining
whether there is jurisdiction, we may infer from “[t]he
fact that [a defendant’s] advertisements targeted
[forum] residents … that [the defendant] knows—
either actually or constructively—about [the forum’s]
user base, and that it exploits that base for
commercial gain by selling space on its website for
advertisements.” Id.
Here, Defendant-Appellee Marcin Wanat operates
a website, ePorner.com, which prior to this suit
attracted nearly 20% of its user base and, as a result,
substantial advertising profits from the United States
market; utilized domain name servers (DNS) of a
United States company that specifically brands itself
as increasing internet speeds in the United States;
and employed Terms of Service that invoked the
protections of United States law. If we take the
undisputed facts alleged by Plaintiff-Appellant AMA
Multimedia as true and resolve any factual disputes
in its favor—as we must—Wanat has targeted his
economic activity toward the United States and may
properly be haled into court here. The majority, in
reaching the contrary conclusion, unduly restricts the
authority of United States courts to hold alleged,

32a
foreign tortfeasors to account and incorrectly curtails
our established precedents. I respectfully dissent. 1
I
Because the majority summarizes most of the key
facts, I reiterate only those most relevant to the
personal jurisdiction analysis. First, Defendant
Marcin Wanat is a Polish citizen and partner in MW
Media, S.C., which owns and operates the adult video
website ePorner.com. Allegedly, ePorner.com has
infringed copyrighted materials of Plaintiff AMA
Multimedia, which is a Nevada limited liability
company. After being sued by AMA in the District of
Arizona, Wanat filed a motion to dismiss for lack of
personal jurisdiction.
Although no facts in the current record show that
Wanat directly conducts activity within the United
Because I would hold that there is already personal jurisdiction
over Wanat, I do not here opine on the majority’s decision to
affirm the denial of further jurisdictional discovery without
considering arguments raised for the first time on appeal.
However, like the view expressed in Judge Nelson’s separate
concurrence, I do not doubt that the district court has discretion
on remand to grant AMA leave to amend its complaint or to
conduct further jurisdictional discovery in light of changes in
international law. The district court may wish to do so in
recognition of courts’ greater discretion to consider questions of
foreign law not initially raised by the parties, given “the peculiar
nature of the issue of foreign law.” See Fed. R. Civ. P. 44.1
advisory committee’s note to 1966 adoption. Especially in a case
such as this, with important interests of the United States’
ability to enforce domestic intellectual property rights at stake,
there are good reasons to ensure that the appropriate
international law is applied. See Richmark Corp. v. Timber
Falling Consultants, 959 F.2d 1468, 1475 (9th Cir. 1992) (one
factor in international disclosure disputes is “the extent to which
noncompliance with the [discovery] request would undermine
important interests of the United States”).

1

33a
States, it is undisputed that ePorner.com’s most
important commercial market is the United States:
19.21% of its website traffic comes from the United
States, while Germany makes up the second largest
market, comprising 13.67% of the website traffic. No
other country accounts for more than 6% of the traffic
to the site. In turn, ePorner.com’s business model
turns solely on advertising profits, and it uses third
parties to geolocate advertisements based on a
visitor’s perceived location. Because of the higher
premiums placed on U.S.- focused advertising, the
U.S. market likely makes up an even greater
proportion of ePorner.com’s profits than its user base
would suggest.
While ePorner.com now stores its videos on a
server in the Netherlands, before this suit it
principally used the domain name servers of U.S.based Tiggee LLC, which claims to provide the fastest
internet speeds in the eastern United States and
second fastest in the western United States. Also,
ePorner.com’s Terms of Service as of 2015 stated that
the website content was “owned by and/or licensed to
Eporner, subject to copyright and other intellectual
property rights under United States, Canada and
foreign laws and international conventions.”
After denying certain jurisdictional discovery, the
district court dismissed the suit for lack of personal
jurisdiction, and AMA appealed.
II
We review de novo a district court’s dismissal for
lack of personal jurisdiction. Axiom Foods, Inc. v.
Acerchem Int’l, Inc., 874 F.3d 1064, 1067 (9th Cir.
2017). Where the determination of personal jurisdiction is “based on written materials rather than an

34a
evidentiary hearing, [a plaintiff] need only make a
prima facie showing of jurisdictional facts.” Martinez
v. Aero Caribbean, 764 F.3d 1062, 1066 (9th Cir. 2014)
(quoting Schwarzenegger v. Fred Martin Motor Co.,
374 F.3d 797, 800 (9th Cir. 2004)). “Uncontroverted
allegations in the complaint must be taken as true,
and factual disputes are construed in the plaintiff’s
favor,” Freestream Aircraft (Bermuda) Ltd. v. Aero
Law Grp., 905 F.3d 597, 602 (9th Cir. 2018), so long
as the plaintiff does not “simply rest on the bare
allegations of its complaint,” Schwarzenegger, 374
F.3d at 800 (quoting Amba Mktg. Sys., Inc. v. Jobar
Int’l, Inc., 551 F.2d 784, 787 (9th Cir. 1977)).
III
Personal jurisdiction under the federal long-arm
statute, Federal Rule of Civil Procedure 4(k)(2), must
comport with due process; in this instance, where
specific jurisdiction is at issue, the defendant must
have “minimum contacts” with the forum of the
United States, and the exercise of jurisdiction must
not be unreasonable. Holland Am. Line Inc. v.
Wartsila N. Am., Inc., 485 F.3d 450, 462 (9th Cir.
2007) (“The due process analysis under Rule 4(k)(2) is
nearly identical to traditional personal jurisdiction
analysis with one significant difference: rather than
considering contacts between [the defendant] and the
forum state, we consider contacts with the nation as
a whole.”); see Int’l Shoe Co. v. Washington, 326 U.S.
310, 316 (1945). The familiar requirements for
specific jurisdiction are as follows: (1) the defendant
must either “purposefully direct his activities” toward
the forum or “purposefully avail[] himself of the
privileges of conducting activities in the forum”; (2)
“the claim must be one which arises out of or relates
to the defendant’s forum- related activities”; and (3)

35a
“the exercise of jurisdiction must comport with fair
play and substantial justice, i.e. it must be
reasonable.” Axiom, 874 F.3d at 1068 (quoting Dole
Food Co., Inc. v. Watts, 303 F.3d 1104, 1111 (9th Cir.
2002)).
The majority correctly identifies the “effects test”
derived from Calder v. Jones, 465 U.S. 783 (1984) as
the appropriate standard by which to gauge whether
Wanat purposefully directed his activities toward the
United States. Under the effects test, “the defendant
allegedly must have (1) committed an intentional act,
(2) expressly aimed at the forum state, (3) causing
harm that the defendant knows is likely to be suffered
in the forum state.” Mavrix Photo, Inc. v. Brand
Techs., Inc., 647 F.3d 1218, 1228 (9th Cir. 2011)
(quoting Brayton Purcell LLP v. Recordon &
Recordon, 606 F.3d 1124, 1128 (9th Cir. 2010)). The
majority also correctly holds that Wanat committed
an intentional act for purposes of jurisdiction. The
majority then goes astray, however, by concluding
that Wanat did not expressly aim his conduct toward
the United States, and that mistake defeats
jurisdiction. Our precedents dictate otherwise, so I
would hold that there is personal jurisdiction over
Wanat.
A
A defendant who operates a passive website
“expressly aims” at a forum if he engages in “conduct
directly targeting the forum.” Mavrix, 647 F.3d at
1229. 2 We have held that this requirement was
It is worth noting that ePorner.com is more than a purely
passive website because it has interactive features that “that
involve the knowing and repeated transmission of computer files
2

36a
satisfied when a defendant “continuously and
deliberately exploited” the forum’s market for
commercial gain, by operating “a website whose
economic value turns, in significant measure, on its
appeal to [forum residents].” Id. at 1230; accord
Keeton v. Hustler Mag., Inc., 465 U.S. 770, 781 (1984)
(“Where, as in this case, [the defendant] has
continuously and deliberately exploited the New
Hampshire market [by selling magazines], it must
reasonably anticipate being haled into court there …
based on the contents of its magazine.”). In other
words, express aiming is present where a defendant
“anticipated, desired, and achieved a substantial
[U.S.] viewer base.” Mavrix, 647 F.3d at 1230.
Here, there should be little question that these
conditions are satisfied. As in Mavrix, ePorner.com’s
business model depends on “selling advertising space
on its website to third-party advertisers: the more
visitors there are to the site, the more hits that are
made on the advertisements; the more hits that are
made on the advertisements, the more money that is
paid by the advertisers to [ePorner.com and Wanat].”
Id. ePorner.com’s ads are geolocated to the perceived
location of its visitors, and at nearly 20% of the
website’s traffic, the United States audience is
“substantial” and in fact makes up a larger proportion
of ePorner’s user base than any other country, by a
significant margin.

over the Internet,” Mavrix, 647 F.3d at 1226 (quotations
omitted), and “visitors must agree to certain terms and
conditions” in order to make full use of the site, UMG
Recordings, Inc. v. Kurbanov, 963 F.3d 344, 353 (4th Cir. 2020).
In any event, regardless of whether the site is passive,
interactive, or semi- interactive, jurisdiction is proper here.

37a
“[I]mmaterial [of] whether the third-party
advertisers or [ePorner and Wanat] targeted [United
States] residents,” “[t]he fact that the advertisements
targeted [U.S.] residents indicates that [ePorner]
knows—either actually or constructively—about its
[U.S.] user base, and that it exploits that base for
commercial gain by selling space on its website for
advertisements.” Id.; see also Kurbanov, 963 F.3d at
348, 353–54 (in finding jurisdiction, reasoning that
“[w]hile [the defendant] outsourced the role of finding
advertisers for the Websites to brokers, the fact
remains that he earns revenues precisely because the
advertising is targeted to visitors in [the forum]”
through “geolocation” or “geo-targeting”). This is
especially true where, as here, ePorner has contracted
with a U.S.-based DNS company that specifically
markets itself as providing fast internet speeds in the
United States. 3 The straightforward conclusion is
that the United States “audience is an integral
component of [ePorner’s] business model and its
profitability,” and that “it does not violate due process
to hold [ePorner or Wanat] answerable in a [U.S.]
court for the contents of a website whose economic
value turns, in significant measure, on its appeal to
[U.S. residents].” Mavrix, 647 F.3d at 1230.
The majority resists this conclusion by seeking to
distinguish Mavrix from the present case and
throwing up roadblocks that can be found nowhere in
ePorner also used Terms of Service that invoked the protections
of United States copyright and trademark law. While the cursory
reference to U.S. law in these Terms would not be sufficient on
its own to establish express aiming, it lends further support to
the conclusion, in conjunction with the rest of the website’s
operations, that ePorner’s contacts with the United States were
more than merely “random, isolated, or fortuitous.” Keeton, 465
U.S. at 774.

3

38a
our precedents— and that, in some instances, flatly
contradict our precedents.
Among other things, the majority suggests that
personal jurisdiction is improper because Wanat and
ePorner lacked a “forum-specific focus,” noting that
“the market for adult content is global.” See Maj. Op.
at 16–17. But it is well- established that no forumspecific requirement exists. In Keeton, the Supreme
Court held that New Hampshire had personal
jurisdiction over a national magazine even though the
magazine distributed fewer copies in that state than
others and even though “the bulk of the harm done to
[the plaintiff] occurred outside New Hampshire.” 465
U.S. at780. Because the magazine “continuously and
deliberately exploited the New Hampshire market …
[t]here is no unfairness in calling it to answer for the
contents of that publication.” Id. at 781. Similarly, our
own court has stated that so long as “a jurisdictionally
sufficient amount of harm is suffered in the forum …,
it does not matter that even more harm might have
been suffered in another [forum].” Yahoo! Inc. v. La
Ligue Contre Le Racisme Et L’Antisemitisme, 433
F.3d 1199, 1207 (9th Cir. 2006) (en banc) (per curiam);
see also Mavrix, 647 F.3d at 1230–31 (finding
jurisdiction in California despite the fact that the
defendant more generally “sought and attracted [a]
nationwide audience[]”). Here, the market for adult
content is not uniquely and exclusively American, but
Wanat should nonetheless be held accountable in a
United States court because he has “continuously and
deliberately exploited” the U.S. market. See Keeton,
465 U.S. at 781.
The majority misreads Mavrix. Mavrix did not
hold that personal jurisdiction is proper only when a
website has a unique appeal in the forum, nor did it

39a
depend fundamentally on the website’s forum-specific
subject matter, as the majority contends, see Maj. Op.
at 16–17. Rather, in Mavrix, “[t]he record [did] not
reflect how many of the website’s visitors are
California residents.” 647 F.3d at 1222. In light of
that absence, we focused on the subject matter of the
website (celebrity gossip) as evidence that the website
had significant appeal in the California forum. Id. at
1230. We then considered that subject matter along
with “the size and commercial value of the California
market”—not with the unknown size and commercial
value of the website’s California user base—to infer
that “[t]his audience is an integral component of [the
defendant’s] business model and its profitability.” Id.
Unlike Mavrix, we need not rely on the subject matter
of ePorner.com as evidence from which to infer the
site’s appeal in the forum: The record directly shows
that ePorner.com appeals to a significant U.S.
audience and that it contracts with a U.S.-based DNS
company which markets itself as providing faster
internet speeds to U.S. users. To hold that there is no
express aiming here is to construe the facts in the
light least favorable to the plaintiff and to blind
ourselves to the clear inference that ePorner “knows
—either actually or constructively—about its [U.S.]
user base, and that it exploits that base for
commercial gain by selling space on its website for
advertisements.” Id. 4

Nor is there truth in the majority’s rejoinder that finding
jurisdiction here would mean that “ePorner could be said to
expressly aim at any forum in which a user views the website.”
Maj. Op. at 19. This contention ignores the fact that a defendant
must have “anticipated, desired, and achieved a substantial
[forum] viewer base,” Mavrix, 647 F.3d at 1230 (emphasis

4

40a
The majority apparently grounds its reluctance to
make this plain inference, in part, on Walden v. Fiore,
571 U.S. 277 (2014), by reasoning that foreseeability
of harm to the plaintiff in the forum cannot alone
establish minimum contacts and that only the
defendant’s own contacts with the forum can provide
the basis for jurisdiction. See Maj. Op. at 17–19 & n.6.
These propositions are undeniably true. They are also
beside the point.
First, foreseeability of harm to the plaintiff
principally relates not to the express aiming analysis,
but to the third prong of the effects test—whether the
defendant “caus[ed] harm that the defendant knows
is likely to be suffered in the forum.” Mavrix, 647 F.3d
at 1228. Although individualized targeting “will not,
on its own, support the exercise of specific jurisdiction” after Walden, it is still “relevant to the
minimum contacts inquiry.” Axiom, 874 F.3d at 1070.
Indeed, that is the only way that the second and third
prongs of the effects test do not entirely collapse into
each other.
Second, Walden stands for the proposition that a
defendant may not simply rely on a plaintiff’s contacts
with the defendant and the forum to establish
personal jurisdiction. Walden, 571 U.S. at 289. That
principle of due process, however, does not make a
defendant immune from suit when the “‘effects’ of the
alleged [tortious conduct] connect[] the defendant[] to
[the forum], not just to the plaintiff.” Id. at 287. The
majority elides this important distinction, asserting
added), and that its contacts cannot be merely “random, isolated,
or fortuitous,” Keeton, 465 U.S. at 774. Exercising jurisdiction
where, as here, the United States is the most integral market to
the defendant’s profitability will not result in the majority’s “skyis-falling” scenario.

41a
that, “[t]o find specific jurisdiction based on [users in
the forum receiving targeted advertisements] would
run afoul of the Supreme Court’s directive in Walden
and ‘impermissibly allow[] a plaintiff’s contacts with
the defendant and forum to drive the jurisdictional
analysis.’” Maj. Op. at 19 (quoting Walden, 571 U.S.
at 289). But the defendant’s own intentional contacts
with users in the forum have nothing to do with the
plaintiff. And as I have explained, the facts here show
that Wanat “knows—either actually or constructively
—about [ePorner.com’s U.S.] user base, and that [he]
exploits that base for commercial gain by selling space
on [the] website for advertisements.” Mavrix, 674
F.3d at 1230.
Taking AMA’s uncontroverted allegations as true
and resolving factual disputes in its favor, there is
more than enough here to conclude that Wanat,
through ePorner, expressly aimed his conduct at the
United States. The second prong of the effects test
should have been resolved in AMA’s favor.
B
The third prong of the effects test is also clearly
satisfied. Because ePorner allegedly violated the
intellectual property rights of AMA, which is
headquartered in the United States, and because the
harm involves the potential diversion of U.S. users
and revenues from AMA’s own platforms, Wanat’s
express aiming is “causing harm that [he] knows is
likely to be suffered in the forum.” See Brayton
Purcell, 606 F.3d at 1131 (it is foreseeable that a
plaintiff will be “harmed by infringement of its
copyright[s and trademarks], including harm to its
business reputation and goodwill, and decreased
business and profits”); Mavrix, 647 F.3d at 1231 (“[A]

42a
corporation can suffer economic harm both where the
bad acts occurred and where the corporation has its
principal place of business.” (quoting Dole Food, 303
F.3d at 1113)). All of the requirements of the Calder
effects test have been met.
C
Having established purposeful direction, the next
step in the minimum contacts inquiry is to consider
whether the claim “arises out of or relates to the
defendant’s forum- related activities.” Axiom, 874
F.3d at 1068 (quoting Dole Food, 303 F.3d at 1111)).
This
step,
too,
straightforwardly
supports
jurisdiction. Wanat operates ePorner.com. That
website allegedly displayed infringing videos, causing
harm to AMA in the United States. But for Wanat’s
operation of ePorner.com, AMA would not have been
harmed in the forum. The harm to AMA arises out of
Wanat’s U.S. contacts. Cf. Mavrix, 647 F.3d at 1228
(“[The plaintiff’s] claim of copyright infringement
arises out of [the defendant’s] publication of the
photos on a website accessible to users in the forum
state.”). 5

Because the majority dismisses the case at the purposeful
direction step, it only briefly addresses, in one sentence in a
footnote, whether the claim arises out of or relates to the
defendant’s forum-related activities and concludes that it does
not. See Maj. Op. at 21 n.9. Its only stated reason is that “nothing
more than AMA’s contested bare allegations support any
personal involvement by Wanat in uploading, encouraging the
uploading, or intentionally failing to remove the infringing
content.” Id. But it is not contested that Wanat, through his
partnership MW Media, assists in operating ePorner.com. The
majority’s cursory, non- binding dicta cannot withstand scrutiny.

5

43a
D
Because all other requirements for specific
jurisdiction have been met, the final inquiry is
whether it is reasonable to exercise personal
jurisdiction over Wanat. Schwarzenegger, 374 F.3d at
802. We balance seven factors in making that determination:
(1) the extent of the defendant’s purposeful
interjection into the forum[’s] affairs;
(2) the burden on the defendant of defending
in the forum;
(3) the extent of conflict with the
sovereignty of the defendant’s [country];
(4) the forum[’s] interest in adjudicating the
dispute;
(5) the most efficient judicial resolution of
the controversy;
(6) the importance of the forum to the
plaintiff’s interest in convenient and
effective relief; and
(7) the existence of an alternative forum.
Freestream Aircraft, 905 F.3d at 607. The burden is
on Wanat “to ‘present a compelling case’ that the
exercise of jurisdiction would not be reasonable.”
Schwarzenegger, 374 F.3d at 802 (quoting Burger
King Corp. v. Rudzewicz, 471 U.S. 462, 477 (1985));
accord Harris Rutsky & Co. Ins. Servs., Inc. v. Bell &
Clements Ltd., 328 F.3d 1122, 1132 (9th Cir. 2003).
Wanat has not done so.
On the one hand, forcing Wanat to litigate in the
United States would almost certainly impose
substantial burdens on him and raise sovereignty and

44a
efficiency concerns. 6 But on the other, Wanat has
purposefully interjected himself in the forum by
operating a website that continuously and
deliberately exploited the U.S. market, see
CollegeSource, Inc. v. AcademyOne, Inc., 653 F.3d
1066, 1080 (9th Cir. 2011), and the United States has
a strong interest in enforcing federal intellectual
property laws and providing redress for injuries felt
within its borders. In light of these competing
concerns, like in Harris Rutsky, “[t]he balance is
essentially a wash,” and Wanat has not met his
burden to present a “compelling case” that the
exercise of jurisdiction would be unreasonable. Harris
Rutsky, 328 F.3d at 1134; accord Freestream Aircraft,
905 F.3d at 609. I would hold that the United States
has personal jurisdiction over Wanat.
IV
The majority’s holding today conflicts with our
precedents and unduly restrains our ability to hold
foreign
tortfeasors
accountable
for
conduct
purposefully directed at the United States and
causing harm in the United States. I respectfully
dissent.

6 It is notable, however, that Wanat has “not presented evidence
that the inconvenience is so great as to constitute deprivation of
due process.” Freestream Aircraft, 905 F.3d at 608 (quotations
omitted).

45a
APPENDIX B
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
No. CV-15-01674-PHX-ROS
AMA MULTIMEDIA, LLC,
Plaintiff,
v.
MARCIN WANAT, ET AL.,
Defendants.

[Filed: September 29, 2017]

ORDER
Defendant Marcin Wanat, a citizen and resident of
Poland, believes this Court lacks personal jurisdiction
over him. Plaintiff AMA Multimedia LLC disagrees
but has not pointed to sufficient evidence to meet the
higher burden applicable to suits against foreigners.
Wanat’s motion to dismiss will be granted.
BACKGROUND
The following facts are drawn from the parties’
evidentiary submissions. Most of these facts are
undisputed with the parties merely disagreeing on
the conclusions to be drawn from them. As explained
in more detail below, there are a few factual disputes
relevant to the jurisdictional issue. In those few

46a
instances, the Court has relied on AMA’s version of
events except where it is clear those facts are
inaccurate.
AMA, a Nevada limited liability company,
produces and distributes “erotic adult entertainment
over the Internet,” i.e. adult videos and pictures. AMA
owns and operates a number of websites where
visitors to those sites can view AMA’s materials.
“AMA owns copyright registrations with the U.S.
Copyright Office for nearly every audiovisual work
that it produces.” (Doc. 87 at 2). AMA also owns and
uses a variety of trademarks in connection with its
materials. For its videos, AMA’s trademarks are
placed in a corner of the screen where they remain
visible throughout the videos.
Defendant MW Media, S.C., is a “civil law
partnership under Polish law.” (Doc. 94 at 7-8).
Defendants Marcin Wanat and Maciej Madon are
partners in MW Media and are both involved in the
partnership’s work. MW Media operates a website
known as Eporner.com. That website allows visitors
to browse for, select, and watch adult videos. Eporner
allows visitors to upload videos for others to view and,
at the time this suit was filed, visitors could upload
videos anonymously. Eporner does not charge visitors
and generates income solely through advertising.
Eporner does not directly control which advertisements appear on its site. Instead, as is increasingly
common with Internet sites, Eporner contracts with
advertising companies and those companies arrange
for the placement of ads. Those companies control
which ads appear for a particular visitor and the ads
depend on where the visitor is located. Thus, visitors
to Eporner from the United States encounter different
advertisements than visitors from Europe.

47a
Wanat did not register the Eporner domain name
but did register two other domain names:
epornergay.com and eprcdn.com. Wanat registered
these two domain names through what he calls the
“Polish branch” of GoDaddy, a company based in the
United States. AMA points out there is not a “Polish
branch” of GoDaddy because GoDaddy has no
physical locations in Poland. It is undisputed,
however, that GoDaddy maintains a version of its
website in Polish, obviously aimed at individuals in
Poland. (Doc. 94-2 at 3; Doc. 97 at 3). Individuals
using that site may or may not know where GoDaddy
is incorporated or located because all interactions are
online.
The parties disagree on the purpose of the two
domain names Wanat registered. According to
Wanat, the domain names merely forward traffic to
the primary Eporner website. That is, when a user
types epornergay.com into his browser, he is
redirected to the Eporner website. According to AMA,
the two other domain names are instrumental in the
operation of Eporner such that traffic to the primary
Eporner website results in use of the eprcdn.com
domain name. Which party is correct, and the
technical details of how the primary Eporner website
interacts with the other domain names, has very little
relevance to the issue of personal jurisdiction.
Therefore, the Court will merely assume AMA is
correct that eprcdn.com helps in the operation of the
Eporner site.
In June 2014, Wanat purchased additional domain
name services from Tiggee, LLC, a Virginia-based
limited liability company. (Doc. 94 at 3). According to
AMA, those services were meant to “assist in the

48a
performance, speed, and reliability of accessing” the
Eporner site. (Doc. 97 at 4).
It is undisputed that, at the time this suit was
filed, the videos available on the Eporner site were
located on a server in the Netherlands. Thus, when an
individual visited the Eporner site and selected a
video to view, that video was sent to the visitor’s
computer from the server in the Netherlands. (Doc.
101 at 5). AMA claims this is an oversimplification
and that servers in Canada were instrumental in the
delivery of videos to Eporner’s visitors. The Court will
assume that is the case but it remains undisputed
that the videos were never located on servers within
the United States.
In 2015, AMA discovered Eporner was displaying
a variety of its copyrighted works. When viewed,
those works contained AMA’s trademarks. In August
2015, AMA filed the present suit against a variety of
Doe Defendants alleging the individuals or entities
operating Eporner were engaged in large-scale
copyright and trademark infringement. AMA was
granted leave to conduct early discovery to determine
who was operating Eporner. That discovery resulted
in AMA learning Wanat was connected to Eporner.
AMA then amended its complaint to name Wanat as
a defendant. In November 2015, Wanat filed a first
motion to dismiss based on a lack of personal
jurisdiction. (Doc. 26).
On December 15, 2015, the Court held a hearing
that addressed, among other things, Wanat’s personal
jurisdiction arguments. After hearing from the
parties, the Court held discovery regarding personal
jurisdiction was needed. That discovery became
contentious with the parties disagreeing on almost

49a
every aspect of discovery, including the requirements
of Polish law. After it became clear the parties would
not be able to resolve their disagreements and that
expertise regarding Polish law would be helpful, the
Court informed the parties a special master would be
appointed. The parties identified an individual who
was qualified to serve as special master based on her
experience and expertise regarding United States and
Polish law. (Doc. 54). The Court appointed that
individual as special master and the parties worked
with her regarding their disputes. The special master
eventually issued a lengthy report with recommendations for resolving the parties’ disputes. Both
parties filed objections but the Court adopted the
special master’s recommendations. The parties then
exchanged substantial discovery and Wanat renewed
his motion to dismiss for lack of personal jurisdiction.
ANALYSIS
Wanat claims personal jurisdiction does not exist
because he has no meaningful contacts with the
United States. AMA disagrees and points to a variety
of minor contacts Wanat has with the United States.
AMA contends those contacts, when analyzed
together, are sufficient to render an exercise of
personal jurisdiction reasonable. The particular
avenue of personal jurisdiction AMA is pursuing is
available only in “an exceptional case.” J. McIntyre
Mach., Ltd. v. Nicastro, 564 U.S. 873, 884 (2011). This
is not such a case.
I.

Burden to Establish Personal Jurisdiction

“Where a defendant moves to dismiss a complaint
for lack of personal jurisdiction, the plaintiff bears the
burden of demonstrating that jurisdiction is
appropriate.” Schwarzenegger v. Fred Martin Motor

50a
Co., 374 F.3d 797, 800 (9th Cir. 2004). AMA and
Wanat disagree on the nature of AMA’s burden at this
point. The long-standing rule in the Ninth Circuit is
that when a motion to dismiss “is based on written
materials rather than an evidentiary hearing, the
plaintiff need only make a prima facie showing of
jurisdictional facts.” Id. This prima facie showing
requires a court resolve in the plaintiff’s favor any
“[c]onflicts between parties over statements
contained in affidavits.” Id. This prima facie
standard, however, does not apply when an
evidentiary hearing is held. In that situation, the
plaintiff must establish personal jurisdiction exists
based on a preponderance of the evidence. Data Disc,
Inc. v. Sys. Tech. Assocs., Inc., 557 F.2d 1280, 1285 n.2
(9th Cir. 1977).
The early Ninth Circuit authority establishing a
different standard when an evidentiary hearing is
held recognized jurisdictional discovery might be
appropriate “where pertinent facts bearing on the
question of jurisdiction are controverted.” Id. The
recognition that controverted facts might merit early
discovery points to the prima facie standard not
applying if discovery is permitted. After all, it makes
little sense to allow early discovery because
jurisdictional facts are disputed if the court is then
required to accept the plaintiff’s version of the facts
when assessing jurisdiction. Thus, in a case where
discovery is allowed, the lower prima facie standard
is a poor fit.
Despite the logic of requiring a plaintiff with
access to discovery prove jurisdiction under the
higher standard, the Ninth Circuit seems to place
special importance on a court holding an “evidentiary
hearing.” See, e.g., Schwarzenegger, 374 F.3d at 800.

51a
The Ninth Circuit has not explained the special
importance of an in-court hearing. But presumably
the requirement is meant to cover situations where a
party wishes to go beyond the written materials and
introduce additional evidence. Alternatively, an
evidentiary hearing might be appropriate if a party is
asking the court to resolve credibility issues. The
present case does not raise either of these possible
bases for convening an in-court evidentiary hearing.
Neither party has identified additional evidence
they might submit were an evidentiary hearing
convened. Nor has either party identified material
issues where the Court would have to resolve witness
credibility. The parties have submitted competing
expert opinions regarding how, exactly, the Eporner
site operates. But those expert opinions do not
present different facts regarding the basic nature of
Wanat’s contacts with the United States. Without
additional evidence to consider or witness credibility
to be resolved, convening an evidentiary hearing
would serve no purpose. Accordingly, AMA should be
held to the higher preponderance of the evidence
standard. 1 See Grayson v. Anderson, 816 F.3d 262,
1 As recognized by the Fourth Circuit, the reference to
“evidentiary hearing” potentially changing the burden of proving
personal jurisdiction does not necessarily require an in-court
hearing. Grayson v. Anderson, 816 F.3d 262, 268 (4th Cir. 2016).
Instead, the reference to an “evidentiary hearing” should be
understood as requiring only that the “court afford the parties a
fair opportunity to present both the relevant jurisdictional
evidence and their legal arguments.” Id. When the parties are
given such an opportunity, the plaintiff must prove, by a
preponderance of evidence, that personal jurisdiction exists. Id.
AMA and Wanat had ample opportunity to present their
evidence and argument and it would serve “no meaningful
purpose” to convene a formal hearing. Id.

52a
269 (4th Cir. 2016) (“[W]e see no reason to impose on
a district court the hard and fast rule that it must
automatically assemble attorneys and witnesses
when doing so would ultimately serve no meaningful
purpose.”). However, following Ninth Circuit
authority AMA will only be required to make out a
prima facie case.
AMA’s prima facie burden is slightly different
than most cases. When, as here, “a plaintiff [is]
seeking to hale a foreign citizen before a court in the
United States,” the plaintiff “must meet a higher
jurisdictional threshold than is required when the
defendant is a United States citizen.” Core-Vent Corp.
v. Nobel Indus. AB, 11 F.3d 1482, 1490 (9th Cir. 1993).
This requirement is based on the Supreme Court’s
admonition that “[g]reat care and reserve should be
exercised when extending our notions of personal
jurisdiction into the international field.” Asahi Metal
Indus. Co. v. Superior Court of California, Solano
Cty., 480 U.S. 102, 115 (1987). This higher
jurisdictional standard applies in the context of a
motion to dismiss. Cf. id. at 116 (reversing denial of
motion to dismiss based on lack of personal
jurisdiction over foreign defendant). Unfortunately,
neither the Ninth Circuit nor the Supreme Court has
clarified the nature of this higher standard. All that
is clear is that AMA must provide a stronger case for
personal jurisdiction than what would be required if
Wanat were located in another state.
In sum, the parties engaged in substantial
jurisdictional discovery and an evidentiary hearing
would serve no purpose. Thus, the Court believes it
would be appropriate to make findings of fact and
hold AMA to the higher preponderance of the
evidence standard. See Albino v. Baca, 747 F.3d 1162,

53a
1170–71 (9th Cir. 2014) (noting “a judge rather than
a jury decides disputed factual questions relevant to
jurisdiction”). But, because no evidentiary hearing
was held, AMA is only subject to the prima facie
standard. That standard, however, is higher in this
case because Wanat is in Poland. Core-Vent, 11 F.3d
at 1490.
II.

Framework for Personal Jurisdiction

The parties’ briefing addresses personal
jurisdiction under Federal Rule of Civil Procedure
4(k)(2). That rule provides a defendant is subject to
personal jurisdiction when the plaintiff’s claims arise
under federal law, “the defendant is not subject to
jurisdiction in any state’s court of general jurisdiction,” and “exercising jurisdiction is consistent
with the United States Constitution and laws.” Fed.
R. Civ. P. 4(k)(2). AMA is asserting claims under
federal law and the Court will assume Wanat would
not be subject to suit in any state court. 2 Thus, only
the third requirement is at issue.
AMA asserts Wanat is also subject to jurisdiction under
Arizona’s long-arm statute but AMA claims it need only “focus”
on jurisdiction under Rule 4(k)(2). (Doc. 97 at 9). AMA is free to
take alternative positions but it seems not to realize that
asserting Wanat is subject to personal jurisdiction in Arizona
necessarily precludes reliance on Rule 4(k)(2). See Holland Am.
Line Inc. v. Wartsila N. Am., Inc., 485 F.3d 450, 461 (9th Cir.
2007) (Rule 4(k)(2) requires “the defendant must not be subject
to the personal jurisdiction of any state court of general
jurisdiction”). Oddly, a few paragraphs after asserting jurisdiction would exist under Arizona’s long-arm statute, AMA
states “Wanat is not subject to the jurisdiction of any state
court.” (Doc. 97 at 9-10). The Court is uncertain what to do with
AMA’s contradictory statements. But the simplest path is to
follow the parties’ briefing and conduct the jurisdictional
analysis solely under Rule 4(k)(2).
2

54a
Under that requirement, “the exercise of personal
jurisdiction [must] comport with due process.”
Holland Am. Line Inc. v. Wartsila N. Am., Inc., 485
F.3d 450, 461 (9th Cir. 2007). This “due process
analysis … is nearly identical to traditional personal
jurisdiction analysis with one significant difference:
rather than considering contacts between” Wanat and
a particular state, the Court must “consider [Wanat’s]
contacts with the nation as a whole.” Id. Such
contacts, however, must be relatively extensive. See
id. at 462 (noting no Ninth Circuit case had
“countenanced jurisdiction under [Rule 4(k)(2)] after
its passage fourteen years earlier).
In 2007, the Ninth Circuit noted it had never
concluded a defendant had the requisite contacts with
the nation as a whole to support jurisdiction under
Rule 4(k)(2). Id. And, as of that time, the few cases
from other circuits where Rule 4(k)(2) had been
invoked successfully involved unusual facts or
extensive contacts. For example, Rule 4(k)(2)
established personal jurisdiction over individuals who
had entered into numerous conspiracies “to bomb the
United Nations, Federal Plaza, and the Lincoln and
Holland Tunnels in New York.” Mwani v. bin Laden,
417 F.3d 1, 13 (D.C. Cir. 2005). Rule 4(k)(2) also
established personal jurisdiction over an insurance
company that insured international shipments of
goods. Adams v. Unione Mediterranea Di Sicurta, 364
F.3d 646, 651 (5th Cir. 2004). That insurance
company had paid 155 claims to U.S. companies, had
insured hundreds of other shipments to the United
States valued at over $130 million, and had “used and
paid a number of individuals in the United States as
claims adjusters, surveyors, investigators and other
representatives to enable it to conduct business in

55a
this country.” Id. Thus, as of 2007, reliance on Rule
4(k)(2) was possible, but highly unusual.
The situation after 2007 has not changed. The
parties have not cited, nor has the Court located, any
post-2007 case from the Ninth Circuit allowing
jurisdiction under Rule 4(k)(2). And in 2011, a
plurality of the Supreme Court noted it would only be
“an exceptional case” where a litigant could be found
to have jurisdictionally sufficient contacts with the
nation despite lacking sufficient contacts with any
particular state. J. McIntyre Mach., Ltd. v. Nicastro,
564 U.S. 873, 884 (2011). Thus, AMA’s reliance on
Rule 4(k)(2) requires AMA establish Wanat has
unusually extensive contacts with the United States.
III. Specific Personal Jurisdiction Does Not
Exist
While there are two types of personal jurisdiction,
AMA has only invoked one: specific personal
jurisdiction. That type of jurisdiction requires
analysis under a three- part test where the first part
requires analysis of a separate three-part test and the
third part requires analysis of seven factors. The
parties disagree on every part and every factor.
Assessing specific personal jurisdiction requires
determining 1) whether Wanat purposefully directed
his activities towards the United States; 2) whether
AMA’s claims “arise[] out of or relate[] to” Wanat’s
“forum-related activities”; and 3) whether the
“exercise of jurisdiction … comport[s] with fair play
and substantial justice, i.e. it [is] reasonable.”
Schwarzenegger, 374 F.3d at 802.

56a
A. Wanat Did not Purposefully Direct his
Activities at the United States
To satisfy the purposeful direction element, AMA
must establish Wanat “(1) committed an intentional
act, (2) expressly aimed at the [United States], (3)
causing harm that [Wanat] knows is likely to be
suffered in the [United States].” Id. at 803. “In
applying this test, [a court] must look[ ] to the
defendant’s contacts with the [United States] itself,
not the defendant’s contacts with persons who reside
there.” Picot v. Weston, 780 F.3d 1206, 1214 (9th Cir.
2015). An “injury to a forum resident is not a
sufficient connection to the forum.” Id. Such an
“injury is jurisdictionally relevant only insofar as it
shows that the defendant has formed a contact with
the forum.” Id. Thus, the proper focus is the nature of
Wanat’s contacts with the United States and not the
harm AMA suffered in the United States.
i. Wanat’s Intentional Acts
AMA’s arguments regarding the precise
“intentional acts” at issue are not clear. According to
AMA the “intentional acts” at issue are Wanat’s
actions in “obtaining videos and images owned by
AMA with no authority to do so, hosting them on
<eprncdn.com>,
and
displaying
them
on
ePorner.com.” (Doc. 97 at 13). It is undisputed that, at
the time of this suit was filed, anonymous individuals
were able to upload videos to Eporner. (Doc. 8-3 at 6).
And, despite engaging in discovery, AMA does not
point to evidence that Wanat was the individual who
uploaded the allegedly infringing videos and images
to Eporner. Wanat has submitted a declaration
specifically denying he did so. (Doc. 94-2 at 3). In
addition, AMA’s “intentional act” arguments appear

57a
to involve its contention that Wanat “personally
reviewed” every video uploaded to Eporner. AMA does
not submit evidence supporting this assertion and it
is implausible. AMA alleges Eporner was a “megatheater” displaying a massive number of videos. (Doc.
87 at 2). AMA does not explain why it believes Wanat
had the ability to personally review every single video
uploaded to Eporner and, in simple terms, it would
have been impossible for Wanat to have done so.
Given the number of videos available on Eporner, it is
inconceivable Wanat personally reviewed each one.
Thus, AMA’s position that Wanat was personally
involved in the complained-of acts is entitled to very
little weight.
The only “intentional acts” AMA supports with
evidence consist of Wanat establishing and
maintaining a website that allowed other individuals
to access AMA’s materials. Having identified the
“intentional acts” at issue, the next step is to
determine if Wanat expressly aimed those acts at the
United States.
ii. Wanat’s Actions Were Not Expressly
Aimed
The Ninth Circuit has “struggled with the
question whether tortious conduct on a nationally
accessible website is expressly aimed at any, or all, of
the forums in which the website can be viewed.”
Mavrix Photo, Inc. v. Brand Techs., Inc., 647 F.3d
1218, 1229 (9th Cir. 2011). It is “clear that maintenance of a passive website alone cannot satisfy the
express aiming prong.” Id. But “operating even a
passive website in conjunction with ‘something more’
—conduct directly targeting the forum—is sufficient.”
Id. The “something more” requirement depends on

58a
factors such as “the interactivity of the defendant’s
website, the geographic scope of the defendant’s
commercial ambitions, and whether the defendant
‘individually targeted’ a plaintiff known to be a forum
resident.” Id. (citations omitted). A Ninth Circuit
decision addressing alleged acts of copyright infringement on a website has some relevance to Wanat’s
situation.
In Mavrix Photo, the defendant was an Ohio
corporation with its principal place of business in
Ohio. Id. at 1222. The defendant operated a website
devoted to celebrity gossip and that website contained
advertisements, some of which “targeted California
residents.” Id. at 1230. The lawsuit arose of out the
defendant’s actions in posting on its site a number of
copyrighted photographs belonging to the plaintiff.
The copyright owner filed an infringement suit in
California and the defendant moved to dismiss for
lack of personal jurisdiction. The district court
granted the motion but the Ninth Circuit reversed. In
doing so, the panel concluded the defendant had
“expressly aimed” its conduct at California by
establishing a website with advertisements targeting
California residents. Moreover, and perhaps most
importantly, the defendant’s website had “a specific
focus on the California-centered celebrity and
entertainment industries.” Id. at 1230. That focus
meant the defendant could not have been surprised to
be “answerable in a California court for the contents
of a website whose economic value turns, in
significant measure, on its appeal to Californians.” Id.
Wanat’s situation with Eporner is substantially
different.
The first difference between Mavrix Photo and the
present suit is that it was undisputed the defendant

59a
in Mavrix Photo had engaged in the intentional act of
posting the copyrighted photos. Thus, the Ninth
Circuit could focus its analysis on whether the act of
posting the photos was expressly aimed at California.
Here, AMA has not made out a prima facie case that
Wanat was responsible for the posting of AMA’s
materials. Thus, as noted above, the intentional acts
at issue here were establishing and maintaining a
website where other individuals could upload and
view AMA’s materials. The contention that
establishing and maintaining a website will satisfy
the express aiming requirement is a dubious starting
position.
Focusing on Wanat’s acts in establishing and
maintaining Eporner, it is undisputed Wanat entered
into minor contracts with United States-based
companies to facilitate Eporner’s efficient operation.
The location of those companies was not a crucial
consideration in Wanat selecting them for their
services as it is undisputed the primary services
responsible for Eporner’s operations were not in the
United States. And, as noted by other courts, many
prominent Internet companies are based in the
United States. Because of that, the location of such
companies should not be deemed meaningful contact
for jurisdictional purposes in disputes involving thirdparties. See NuboNau, Inc. v. NB Labs, Ltd, No.
10CV2631-LAB BGS, 2012 WL 843503, at *6 (S.D.
Cal. Mar. 9, 2012); DFSB Kollective Co. v. Bourne, 897
F. Supp. 2d 871, 883 (N.D. Cal. 2012). Thus, Wanat’s
contracts with GoDaddy and Tiggee are of very
limited usefulness when evaluating whether he
expressly aimed his conduct at the United States.
Next, like in Mavrix Photo, Wanat and Eporner
directed advertisements at United States residents.

60a
Wanat does not, however, control the nature of those
advertisements as he contracts with third-parties
who control which ads will be displayed to particular
visitors. Those third-parties are not in the United
States. Moreover, it is common practice for websites
to rely on third-party advertisement companies to
place ads. Such advertising companies routinely
tailor ads based on the residence of the visitor. Bob
Tedeschi, E-Commerce; Borderless is out; advertisers
now want to know if a customer lives in Cairo, Egypt,
or Cairo, Ill., N.Y. Times, April 2, 2001 at C10. Thus,
an individual in the United States who visits a
website for a company based anywhere in the world
might see advertisements directed at individuals in
the United States. Deeming such advertisementtargeting an act of “express aiming” would effectively
eliminate the requirement for all websites with
advertisements. It is possible courts will eliminate the
express aiming requirement but, at present, they
have not done so.
Finally, and most importantly, Wanat’s establishment and maintenance of Eporner was not an attempt
to target a United States-specific audience. Unlike
the “California-centered” market at issue in Mavrix
Photo, the market for adult content is global. This is
obvious from the fact that over 80% of the visitors to
Eporner come from outside the United States. Rather
than expressly aimed at the United States, Eporner
is a website serving a global demand.
With no meaningful contracts in the United
States, little involvement in the ubiquitous practice of
targeted advertising, and no attempt to exploit a
United States-specific market, Wanat has not
expressly aimed his activities at the United States.
The failure of the express aiming requirement is fatal

61a
to AMA’s jurisdictional argument. But assuming
AMA could satisfy this requirement, AMA has not
satisfied the third requirement involving harm.
iii. AMA Has Not Established it Suffered
Harm Linked to Eporner
The final element under the “purposeful direction”
test is whether AMA has established it suffered
“jurisdictionally significant harm” in the United
States as a result of Wanat’s actions. See Mavrix
Photo, 647 F.3d 1218, 1231 (9th Cir. 2011). AMA has
made no meaningful effort to establish this element.
The only argument AMA offers is “[t]he majority of its
paid subscriptions emanate from viewers in the
United States” and, therefore, “its harm is felt
overwhelming, if not exclusively, in the United
States.” (Doc. 97 at 18-19). AMA offers no supporting
evidence that its subscribers have decreased because
of Eporner or that individuals have decided not to
initiate new subscriptions because of Eporner. In an
earlier Order the Court notified AMA of the need to
go beyond such an unsupported, and implausible,
allegation of harm. (Doc. 9 at 6). Inexplicably, AMA
has chosen to ignore that guidance.
As explained in the earlier Order, the Ninth
Circuit’s reasoning in a similar copyright infringement case is directly relevant to AMA’s assertion of
harm. That case involved a plaintiff operating a
subscription-based website offering adult images.
Perfect 10, Inc. v. Google, Inc., 653 F.3d 976 (9th Cir.
2011). The plaintiff sought a preliminary injunction
against another website that was offering the
plaintiff’s images for free. In the context of a request
for a preliminary injunction, the Ninth Circuit
concluded the plaintiff had not established a

62a
likelihood of irreparable harm because the plaintiff
had “failed to submit a statement from even a single
former subscriber who ceased paying for [the
plaintiff’s] service because” of the defendant’s actions.
Id. at 982. In addition, other websites also offered free
access to the plaintiff’s images meaning, even
assuming free access was depressing demand for the
plaintiff’s images, there was not a “sufficient causal
connection” between the particular defendant’s
actions and the plaintiff’s harm. Id. This same
reasoning applies to AMA’s current allegation of
harm.
Eporner offers visitors free access to its videos and
attracts a large number of visitors. AMA does not,
however, offer evidence that visitors to Eporner would
visit AMA’s sites but for the existence of Eporner. In
fact, there are massive competitors of Eporner that
also offer free access to adult videos. See United States
v. R.V., 157 F. Supp. 3d 207, 231 (E.D.N.Y. 2016)
(“Xvideos, the largest [porn] site on the web with 4.4
billion page views per month, is three times the size
of CNN or ESPN, and twice the size of Reddit. …
YouPorn, Tube8, and Pornhub—they’re all vast, vast
sites that dwarf almost everything except the Googles
and Facebooks of the internet.”) (quotation marks and
citation omitted). While there is no evidence that
those other sites also offer access to AMA’s videos,
there is also no evidence that visitors to Eporner are
particularly interested in AMA’s videos. It is possible
AMA’s videos qualify as “substitute goods” such that
individuals visiting Eporner will view materials from
other producers if AMA’s materials are only available
for a price. Cf. In re PDI Sec., No. CIV.A. 02-211
(GEB), 2006 WL 3350461, at *20 (D.N.J. Nov. 16,
2006) (“One kind of good is said to be a substitute good

63a
for another kind insofar as the two kinds of goods can
be consumed or used in place of one another in at least
some of their possible uses, e.g., margarine and
butter, or petroleum and natural gas.”). In other
words, Eporner may not be preventing any individual
from paying AMA for its services because the relevant
individuals are only interested in free videos and are
unwilling to pay AMA any amount. In short, AMA’s
“bare bones” statements of harm are not sufficient to
show it has suffered jurisdictionally sufficient harm.
Swartz v. KPMG LLP, 476 F.3d 756, 766 (9th Cir.
2007).
iv. Summary of Purposeful Direction
Wanat engaged in the intentional acts of
establishing and maintaining Eporner but AMA has
not made a prima facie case that those acts were
aimed at the United States or that those acts caused
harm in the United States. Thus, Wanat’s motion to
dismiss must be granted based solely on the
“purposeful direction” element of personal jurisdiction. For completeness, however, the Court will
continue with the analysis and explain why the other
elements for personal jurisdiction are also lacking.
B. AMA’s Claims Do Not Arise Out of or
Relate to Wanat’s United States Activities
“The second requirement for specific, personal
jurisdiction is that the claim asserted in the litigation
arises out of the defendant’s forum related activities.”
Panavision Int’l, L.P. v. Toeppen, 141 F.3d 1316, 1322
(9th Cir. 1998). “[T]he Ninth Circuit follows the ‘but
for’ test,” meaning AMA “must show [it] would not
have suffered an injury ‘but for’ [Wanat’s] forumrelated conduct.” Menken v. Emm, 503 F.3d 1050,
1058 (9th Cir. 2007). Having previously determined

64a
Wanat has not engaged in meaningful “forum-related
conduct,” AMA has not met this element.
C. Exercising Jurisdiction Would Not be
Reasonable
The final requirement for exercising personal
jurisdiction is that subjecting Wanat to jurisdiction in
the United States “comport[s] with fair play and
substantial justice.” International Shoe Co. v.
Washington, 326 U.S. 310, 316 (1945). Wanat bears
the burden of establishing jurisdiction would be
unreasonable. Dole Food Co. v. Watts, 303 F.3d 1104,
1114 (9th Cir. 2002). In the unique circumstances of
this case, Wanat has borne his burden.
The reasonableness element must be assessed by
balancing seven factors: “(1) the extent of the
defendants’ purposeful injection into the forum state’s
affairs; (2) the burden on the defendant of defending
in the forum; (3) the extent of conflict with the
sovereignty of the defendant’s state; (4) the forum
state’s interest in adjudicating the dispute; (5) the
most efficient judicial resolution of the controversy;
(6) the importance of the forum to the plaintiff’s
interest in convenient and effective relief; and (7) the
existence of an alternative forum.” Dole Food Co. v.
Watts, 303 F.3d 1104, 1114 (9th Cir. 2002). Each
factor will be addressed.
First, Wanat’s “purposeful injection” into the
United States’ affairs is limited. He operates a
globally accessible website that offers videos to a
global audience. The website advertises in the United
States but it is not focused on the United States
market as slightly more than 80% of its visitors are
not in the United States. This first factor weighs
against jurisdiction.

65a
Second, it would be a substantial burden on Wanat
to litigate here. Wanat has never been to the United
States, may need to obtain a visa to enter the United
States, and has no assets in the United States. In
addition, possible repeated travel between Poland
and the United States would be a considerable
financial burden. With no meaningful ongoing
relationship with the United States, requiring Wanat
litigate here would be unduly burdensome. See CoreVent Corp. v. Nobel Indus. AB, 11 F.3d 1482, 1488
(9th Cir. 1993) (“The burden in this case is
particularly great because the Swedish doctors have
no ongoing connection to or relationship with the
United States.”).
Third, subjecting Wanat to suit anywhere in the
United States would constitute a substantial
intrusion on Poland’s sovereignty. Wanat has no
meaningful relationships with individuals or entities
in the United States. Based on that, sovereignty
concerns are particularly weighty. See Core-Vent, 11
F.3d at 1489 (“Sovereignty concerns weigh more
heavily when the defendants have no United Statesbased relationships.”). The prospect that any
individual in Poland can be sued anywhere in the
United States because he is operating a website with
advertising aimed at individuals in the United States
would constitute a substantial exercise of power over
Polish citizens. Sovereignty concerns weigh against
jurisdiction being reasonable.
Fourth, the United States has an interest in
adjudicating AMA’s claims because it has a
substantial interest in providing a forum for copyright
holders to seek redress. This factor weighs in favor of
jurisdiction.

66a
Fifth, the most efficient resolution of this dispute
involves assessing “where the witnesses and the
evidence are likely to be located.” Core-Vent, 11 F.3d
at 1489. Most of the witnesses and evidence, including
the vast majority of the crucial witnesses and
evidence, are located outside the United States.
Wanat and the other individual running Eporner are
in Poland, evidence regarding the operation of
Eporner is in Poland or other locations outside the
United States, and the servers with the allegedly
infringing material are in the Netherlands. AMA’s
evidence and witnesses are in the United States but
that evidence and those witnesses are not as
significant for proving AMA’s claims compared to the
evidence located elsewhere. This factor weighs
against jurisdiction.
The sixth and seventh factors can be considered
together as “whether an alternate forum exists, as
well as the convenience and effectiveness of relief for
the plaintiff.” Id. at 1490. AMA “bears the burden of
proving the unavailability of an alternative forum.”
Id. AMA has made no effort to establish courts in
Poland or elsewhere are unavailable. AMA has also
made no effort to explain the burden it will have to
bear if forced to litigate in Poland. Therefore, this
factor weighs against jurisdiction.
Viewed together, six of the seven factors weigh
against exercising personal jurisdiction over Wanat.
Thus, even if AMA could satisfy purposeful direction,
and that its claims arise out of Wanat’s forum-related
activities, it would be contrary to “fair play and
substantial justice” to require him to litigate in the
United States. International Shoe Co. v. Washington,
326 U.S. 310, 316 (1945).

67a
D. Summary
After conducting lengthy discovery and invoking
the federal long-arm statute, AMA has not
established this is an “exceptional case” that meets
the higher standard for a federal court to exercise
personal jurisdiction over a citizen of Poland. J.
McIntyre Mach., Ltd. v. Nicastro, 564 U.S. 873, 884
(2011) (plurality opinion). As noted by Justice Breyer
in 2011, the standards for personal jurisdiction
present special problems in the Internet age. Id. at
890. In agreeing that New Jersey lacked personal
jurisdiction over a company incorporated in England,
he expressed skepticism with the viability of
establishing bright line standards regarding personal
jurisdiction. Id. To illustrate that skepticism he posed
a series of rhetorical questions that explored the
difficult questions that arise in personal jurisdiction
scenarios involving foreign defendants: will jurisdiction exist when a foreign company targets the
world by selling products over the Internet, what
about when that company uses “an intermediary (say,
Amazon.com)” to receive and fill orders instead of
shipping products directly, or when a “company
markets its products through popup advertisements
that it knows will be viewed in a forum?” Id. Though
thought provoking, Justice Breyer did not offer
answers to these questions. Determining personal
jurisdiction over foreign defendants is a difficult issue
but, under the currently applicable standards,
Wanat’s motion to dismiss will be granted.
IV. Other Issues
A. Interlocutory Appeal Not Appropriate
AMA seeks leave to appeal an earlier discovery
order regarding the proper interpretation of Polish

68a
law and whether the Court erred by adopting the
Special Master’s interpretation of Polish law. (Doc.
93). That request appears to be moot now that Wanat
must be dismissed. The presence of the other
defendants may require resolution of the issue in the
future but, at present, the motion will be denied as
moot.
B. Adam Silverman’s Declaration Has Been
Disregarded in Part
Wanat seeks leave to file a formal objection to
statements in a declaration provided by Adam
Silverman, the President of AMA. According to
Wanat, that declaration included a wide variety of
statements Mr. Silverman was not qualified to make
as well as a false statement regarding Wanat’s
business contacts in the United States. Wanat
believes the Court should disregard Mr. Silverman’s
declaration as lacking foundation, irrelevant, and
false. AMA defends Mr. Silverman’s declaration but
most of his statements were, in fact, inappropriate.
Many of the statements in Mr. Silverman’s
declaration consist of expert opinions and Mr.
Silverman has not established he has the requisite
expertise to offer those opinions or that the opinions
are reliable. In addition, Mr. Silverman repeatedly
makes statements that he could not, in fact, have a
sufficient factual basis for offering. For example, Mr.
Silverman makes factual assertions about Wanat’s
motivations in configuring Eporner. There is no
explanation how Mr. Silverman would know those
motivations. Moreover, Mr. Silverman offers a variety
of statements that are not relevant to the limited
issue of jurisdiction. Thus, most of Mr. Silverman’s

69a
declaration must be ignored as lacking foundation or
irrelevant.
Finally, Mr. Silverman made one statement
directly relevant to jurisdiction. but that statement
was false. Mr. Silverman stated “ePorner is doing
business with U.S.- based advertiser, Traffic Haus.”
(Doc. 97-20 at 8). The parties now agree that was not
true. Mr. Silverman attempts to explain his
statement was an attempt to clarify technical
matters, although it is unclear how it was a technical
matter whether Wanat had contracted with a
particular company. Mr. Silverman also claims his
statement was, at worst, “an innocent mistake.”
Again, it is unclear because insufficient factual
information was given how he could have mistakenly
represented a business relationship existed when, in
fact, it did not. (Doc. 108 at 4). Thus, that statement
must be ignored.
Despite the problems with Mr. Silverman’s
declaration, the Court does not need further briefing
from either party. Instead, the Court has considered
only those statements in the declaration that Mr.
Silverman is qualified to make, that he has a factual
basis for, and which are not demonstrably false.
Wanat’s request to submit further briefing on this
issue will be denied.
C. Remaining Defendants
AMA has named two other defendants: MW
Media, S.C., and Maciej Madon. AMA will be required
to file a status report indicating how it wishes to
proceed against these defendants and how it will
establish personal jurisdiction exists over those
defendants in light of the analysis in this Order.

70a
IT IS ORDERED the Motion for Leave to Appeal
(Doc. 93) is DENIED.
IT IS FURTHER ORDERED the Motion to
Dismiss (Doc. 94) is GRANTED. Defendant Marcin
Wanat is DISMISSED based on a lack of personal
jurisdiction.
IT IS FURTHER ORDERED the Motion for
Leave to File (Doc. 102) is DENIED.
IT IS FURTHER ORDERED no later than
October 13, 2017, Plaintiff shall file a status report
indicating how it plans to proceed against the
remaining defendants.
Dated this 29th day of September, 2017.
Honorable Roselyn O. Silver
Senior United States District Judge

71a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-15051
AMA MULTIMEDIA, LLC,
Plaintiff-Appellant,
v.
MARCIN WANAT, A FOREIGN CITIZEN;
MACIEJ MADON, A FOREIGN CITIZEN;
MW MEDIA, A FOREIGN CORPORATION,
Defendants-Appellees.

[November 9, 2020]

ORDER
Before: GOULD, IKUTA, and NELSON, Circuit Judges
Judges Ikuta and R. Nelson have voted to deny the
petition for rehearing en banc. Judge Gould would
grant the petition.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for rehearing en banc is DENIED.

